<html>
<title> - MAKING AMERICA SAFER: EXAMINING THE RECOMMENDATIONS OF THE 9/11 COMMISSION</title>
<body><pre>[Senate Hearing 108-741]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-741

    MAKING AMERICA SAFER: EXAMINING THE RECOMMENDATIONS OF THE 9/11 
                               COMMISSION

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 30, 2004

                               __________

   Printed for the use of the Committee on Governmental Affairs




                    U.S. GOVERNMENT PRINTING OFFICE
95-505 PDF                 WASHINGTON : 2005
______________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001


      Printed for the use of the Committee on Governmental Affairs

                   COMMITTEE ON GOVERNMENTAL AFFAIRS

                   SUSAN M. COLLINS, Maine, Chairman
TED STEVENS, Alaska                  JOSEPH I. LIEBERMAN, Connecticut
GEORGE V. VOINOVICH, Ohio            CARL LEVIN, Michigan
NORM COLEMAN, Minnesota              DANIEL K. AKAKA, Hawaii
ARLEN SPECTER, Pennsylvania          RICHARD J. DURBIN, Illinois
ROBERT F. BENNETT, Utah              THOMAS R. CARPER, Delaware
PETER G. FITZGERALD, Illinois        MARK DAYTON, Minnesota
JOHN E. SUNUNU, New Hampshire        FRANK LAUTENBERG, New Jersey
RICHARD C. SHELBY, Alabama           MARK PRYOR, Arkansas

           Michael D. Bopp, Staff Director and Chief Counsel
               David A. Kass, Chief Investigative Counsel
       Michael L. Stern, Deputy Staff Director for Investigations
      Joyce A. Rechtschaffen, Minority Staff Director and Counsel
                    Kevin J. Landy, Minority Counsel
                      Amy B. Newhouse, Chief Clerk




                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Collins..............................................     1
    Senator Lieberman............................................     3
    Senator Voinovich............................................    18
    Senator Levin................................................    21
    Senator Coleman..............................................    24
    Senator Durbin...............................................    29
    Senator Specter..............................................    36
    Senator Dayton...............................................    39
    Senator Fitzgerald...........................................    42
    Senator Carper...............................................    45
    Senator Lautenberg...........................................    49
    Senator Pryor................................................    53
    Senator Akaka................................................    56
Prepared statement:
    Senator Shelby...............................................    61

                               WITNESSES
                         Friday, July 30, 2004

Hon. Thomas H. Kean, Chairman, National Commission on Terrorist 
  Attacks Upon the United States.................................     5
Hon. Lee H. Hamilton, Vice Chairman, National Commission on 
  Terrorist Attacks Upon the United States.......................     8

                     Alphabetical List of Witnesses

Hamilton, Hon. Lee H.:
    Testimony....................................................     8
    Joint prepared statement with attachments....................    63
Kean, Hon. Thomas H.:
    Testimony....................................................     5
    Joint prepared statement with attachments....................    63

                                APPENDIX

Memorandum submitted by Senator Specter..........................    71
Democratic National Campaign Matter submitted by Senator Specter.    72
Questions and Responses for Mr. Kean and Mr. Hamilton from:
    Senator Collins..............................................    73
    Senator Akaka................................................    74
    Senator Durbin...............................................    76
    Senator Lautenberg...........................................    79
    Senator Bennett..............................................    84
    Senator Shelby...............................................    86

 
    MAKING AMERICA SAFER: EXAMINING THE RECOMMENDATIONS OF THE 9/11 
                               COMMISSION

                              ----------                              


                         FRIDAY, JULY 30, 2004

                                       U.S. Senate,
                         Committee on Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 11:04 a.m., in 
room SH-216, Hart Senate Office Building, Hon. Susan M. 
Collins, Chairman of the Committee, presiding.
    Present: Senators Collins, Voinovich, Coleman, Specter, 
Fitzgerald, Lieberman, Levin, Akaka, Durbin, Carper, Dayton, 
Lautenberg, and Pryor.

             OPENING STATEMENT OF CHAIRMAN COLLINS

    Chairman Collins. The Committee will come to order.
    Let me begin by thanking our Committee Members for 
rearranging their schedules on very short notice to be here 
today. I particularly want to acknowledge our Democratic 
members, all of whom raced down from Boston this morning and 
have accused me of depriving them of a good night's sleep. This 
is not a Republican plot. We are very happy to have you here.
    Senator Lieberman. Madam Chairman, if I may say so, in a 
phrase that may have become familiar, on behalf of this side we 
are reporting for duty. [Laughter.]
    Chairman Collins. I also want to welcome our two 
distinguished witnesses who join us today. I am very grateful 
for their work and for their presence as well.
    Today, the Governmental Affairs Committee begins a series 
of hearings on the recommendations of the 9/11 Commission 
calling for a restructuring of our intelligence organizations. 
The task that we have been assigned by the Senate leaders is to 
examine in depth the recommendations for reorganizing the 
Executive Branch and to report legislation by October 1.
    We must act with speed, but not in haste. We must be bold, 
but we cannot be reckless. We must protect not just the lives 
of our citizens, but also those values that make life worth 
living. All terrorism involves death and destruction, but the 
ultimate goal of terrorists is to destroy everything that we 
treasure and that defines us as Americans--our democracy, 
protection of the rights of all, adherence to the rule of law, 
economic opportunity, and religious and political freedom.
    Those who despise our way of life will stop at nothing to 
achieve this goal. Osama bin Laden has repeatedly said that al 
Qaeda makes no distinction between military and civilian 
targets. He has called the murder of any American anywhere on 
Earth ``the duty of every Muslim.''
    The 9/11 Commission makes numerous findings as to how we 
can better protect ourselves and our liberty. These 
recommendations, ranging from improving educational and 
economic opportunities in Muslim states to implementing a 
biometric screening system to improve border security, will be 
considered by congressional committees in the weeks ahead.
    Today, however, our focus is on a key Commission finding: 
That we must reform the structure of our intelligence 
community.
    The Commission makes two major recommendations to 
accomplish this end: The establishment of a National 
Counterterrorism Center to unify intelligence analysis and 
operational planning, and the creation of a new National 
Intelligence Director to lead our entire intelligence effort, 
which now involves 15 agencies scattered across the Federal 
Government.
    The center, as envisioned by the Commission, would not be 
another layer of bureaucracy but, rather, a means by which our 
intelligence agencies can share and integrate their expertise, 
their information, and their institutional memories.
    The proposed Intelligence Director would have the authority 
to allocate resources and control budgets to ensure that the 
most important priorities are funded in keeping with the 
policies established by the President and the National Security 
Council. This reorganization would represent a fundamental 
overhaul of our intelligence structure and a sea change in our 
thinking.
    The precise form and extent of reorganization remain to be 
determined, and we need to make clear, just as the 9/11 
Commission report does, that the intelligence failures were not 
the result of individual negligence but of institutional 
rigidity. Massive reorganizations of government are always 
controversial. They are often met with great resistance from 
those being reorganized. While turf battles abound in 
Washington, for the American people it is results that count.
    Power struggles for authority and responsibility, however 
well motivated, cannot be allowed to doom needed reforms. Our 
theme should be, as the Commission quotes one CIA official, 
``One fight, one team.'' It can be done.
    Consider, for example, the Goldwater-Nichols Department of 
Defense Reorganization Act of 1986. It centralized operational 
authority in the Chairman of the Joint Chiefs of Staff. 
Initially, this restructuring was vigorously opposed by those 
who clung to the independence of the service branches. The 
performance of our military since then, in the Gulf War, in 
Bosnia, and in Afghanistan and Iraq, is testament to the wisdom 
of that unifying reform.
    The threat we face today requires the same willingness to 
innovate, to coordinate information, to share skills and 
talent, and to pursue the overriding mission that helped 
America meet the challenges of the 20th Century. This Committee 
must do everything in its power to see that America's 
intelligence structures are rebuilt to meet the challenges of 
the 21st Century.
    Today, we are honored to hear from the two leaders of the 
9/11 Commission: Chairman Thomas Kean and Vice Chairman Lee 
Hamilton. I thank them for their extraordinary service and 
welcome them here today.
    Before calling on the Commissioners, I would like to 
recognize my friend, Senator Lieberman, for any opening 
comments that he might have. In addition to possessing 
tremendous experience and insight, Senator Lieberman brings a 
decidedly nonpartisan approach to this urgent task. I very much 
appreciate his assistance in putting these hearings together so 
quickly, and I look forward to working with him and the other 
Members of our Committee as we strive to meet our October 1 
goal.
    Senator Lieberman.

             OPENING STATEMENT OF SENATOR LIEBERMAN

    Senator Lieberman. Thank you very much, Madam Chairman. I 
know that you and I agree--and I would guess that every other 
Member of the Committee does--that the report of the Kean-
Hamilton 9/11 Commission presents us, this Committee, and the 
Congress with one of the most important opportunities any of us 
will have to be of service to our country. And I take 
encouragement from your leadership of this Committee as we 
begin the process of responding to the Commission's report 
because I know it will be nonpartisan; I know that you will, as 
you always do, put the national interest ahead of partisan 
interest. And I think together we are going to get this job 
done and get it done with unprecedented thoughtfulness and 
speed.
    Our leadership, Senators Frist and Daschle, late on the day 
that the 9/11 Commission report was issued, charged this 
Committee with the responsibility of examining the 
reorganization recommendations from the Commission. We accept 
this responsibility with a sense of urgency the Commission 
recommends and the American people rightfully expect.
    Vice Chairman Hamilton, reflecting on all the witness 
interviews that led the Commission to conclude that changes 
were necessary in a way the American intelligence community was 
organized, has said, ``A critical theme that emerged throughout 
our inquiry was the difficulty of answering the question: Who 
is in charge? Who ensures that agencies pool resources, avoid 
duplication, and plan jointly? Who oversees the massive 
integration and unity of effort to keep America safe?''
    ``Too often,'' Lee Hamilton concluded, ``the answer is no 
one.'' That is unacceptable. That status quo failed us on 
September 11, 2001, and it will fail us again, unless we begin 
to work now to institute the reforms the 9/11 Commission has 
recommended.
    I want to thank both Chairman Kean and Vice Chairman 
Hamilton for their remarkable leadership. The Commission has 
far exceeded the hope Senator McCain and I had for it when we 
pushed for its creation in the months after September 11. If 
you will allow me, your service, gentlemen, reminds me of a 
favorite quote from Thomas Jefferson: ``Citizens who love their 
country on its own account, and not merely for its trappings of 
interest or power, can never refuse to come forward when they 
find that the Nation is engaged in dangers which they have the 
means of warding off.''
    That is what you have done. Your Nation, our Nation, was 
and is in danger. And while we are safer than we were on 
September 11, we are still not safe, as your report concludes. 
You and your fellow Commissioners put your private lives aside 
and stepped forward to document for the Nation the story of 
September 11 and the bold actions that are needed now to 
confront and defeat the continuing danger of terrorism.
    I know it was nearly 2 years of difficult, painstaking work 
for all the Commission members and staff, and we are grateful 
and proud that in these fractious times, your Commission was 
able to carry out its work in a thoroughly nonpartisan fashion 
and produce a unanimous report. You have created the model 
Congress must follow as we respond to your recommendations.
    Our thanks also go to the families of the victims of 
September 11 who have played such a steadfast role in demanding 
answers to the difficult questions surrounding the attack so 
lives could be saved in the future. The only answer those 
family members would not accept was ``No,'' as in there will be 
no Commission. They insisted that there be a Commission.
    So I conclude, if I might, that Jefferson would be proud 
that our Nation still produces citizens like Tom Kean, Lee 
Hamilton, the other members of the Commission, and the families 
of the victims of September 11.
    I have long believed that if we, as a Nation, are ever 
going to make sense of what happened on September 11, we need 
to look back honestly--not with rancor, not with rumor, not 
with fear, but with clear eyes and honest hearts. Your 
extraordinary work enables us now to do just that.
    You answer better than anyone has the two questions that we 
all want answered: How could the September 11 attacks have 
happened? And how can we prevent, to the best of our ability, 
anything like September 11 from ever happening again?
    This 587-page report does not close the book on September 
11; rather, it now opens a new chapter for Congress and the 
White House to write, as we fulfill our responsibilities to 
create the 21st Century intelligence and homeland defense 
systems your report calls for. In this mission, we should all 
feel the same sense of urgency the Commissioners have 
expressed.
    Chairman Kean, you said, ``This system is not fixed. Our 
biggest weapon of defense is our intelligence system. If that 
doesn't work, our chances of being attacked are so much 
greater. So our major recommendation is to fix that 
intelligence system and to do it as fast as possible.''
    That is why we are holding these hearings today, 
unprecedented for the speed and the time at which they have 
been called. Our staffs will be working this summer to have 
legislation ready for the Senate's consideration by the end of 
September. When the Senate returns on September 7, just days 
before the third anniversary of September 11, we are going to 
be well on our way. And many other congressional hearings will 
follow.
    Today, this Committee I hope will focus mostly on the 
Commission's recommendations for the creation of a National 
Counterterrorism Center, a National Intelligence Director, and 
some related issues like information sharing.
    As always, as we begin our work, history can inform our 
judgments. I go back to 1924 when General Billy Mitchell 
predicted that a war with Japan was coming and that it would 
begin with an attack on Pearl Harbor. He even predicted the 
time of day the attack would occur. Then came December 7, 1941. 
Sadly, we also had warnings years before, as you document, 
before September 11, of the mounting terrorist threat and gaps 
in our government's intelligence preparedness. Then came 
September 11, 2001, and again we showed we were unprepared.
    We cannot let another attack succeed because of our own 
inaction, and we meet to begin these deliberations at a time 
when our Nation has been given fair and factual warning that 
our terrorist enemies intend to attack again.
    Your Commission's recommendations offer us a chance to 
seize control of our future and defend America. We must act now 
and not put this over to the next Congress.
    Jefferson, again, once warned that, ``Lethargy is the 
forerunner of death to public liberty.'' In the case of 
terrorism, lethargy can also be the forerunner to the death of 
thousands of innocent Americans. That is why we must not go 
slow or protect the status quo. It is time to act to fulfill 
our congressional responsibilities in an age of terrorism to 
provide for the common defense and ensure domestic tranquility, 
and I am confident that this Committee, working across party 
lines in the national interest, can lead the way.
    Thank you very much, Madam Chairman.
    Chairman Collins. Thank you, Senator. We will start with 
Governor Kean.

    TESTIMONY OF HON. THOMAS H. KEAN,\1\ CHAIRMAN, NATIONAL 
     COMMISSION ON TERRORIST ATTACKS UPON THE UNITED STATES

    Mr. Kean. Madam Chairman Collins, Senator Lieberman, 
Members of the Committee, it is a great honor to appear before 
you today, to open our public testimony on behalf of the 
recommendations in the final report of our 9/11 Commission.
---------------------------------------------------------------------------
    \1\ The joint prepared statement of Mr. Kean and Mr. Hamilton 
appears on page 63.
---------------------------------------------------------------------------
    We also want to thank the leadership of the U.S. Senate. 
Both the Majority Leader and the Democratic Leader have shown 
your strong support for our work. We commend them, and we 
commend you for your leadership. And I might just say a word on 
that. We did not envision--we hoped for speed because we have 
this strong sense of urgency. But you have even exceeded our 
expectations. This is remarkable. I would like to thank this 
Committee very much, as well as the U.S. Senate. This is in the 
interests of our country. Thank you for your service.
    The U.S. Government must take all the steps it can to 
disrupt and defeat the terrorists and protect against and 
prepare for terrorist attacks.
    Our recommendations to address the transnational danger of 
Islamist terrorism rest on three policies: To attack terrorists 
and their organizations; prevent the continued growth of 
Islamic terrorism; and protect and prepare for terrorist 
attacks.
    The long-term success of our efforts depend on the use of 
all elements of national power. We must use diplomacy, 
intelligence, covert action, law enforcement, economic policy, 
foreign aid, public diplomacy, and, of course, homeland 
defense. If we favor one tool while neglecting others, we are 
still going to leave ourselves vulnerable and we will weaken 
our overall national effort.
    Our recommendations about what to do encompass many themes: 
Foreign policy, public diplomacy, border security, 
transportation security, the protection of civil liberties, and 
setting priorities for national preparedness. We also make, of 
course, several recommendations on how to do it--how to 
organize the U.S. Government to address the new national 
security threat of transnational terrorism.
    We understand and appreciate that the topic of today's 
hearing is governmental organization. We will address in detail 
some of our key recommendations in this area. However, it would 
be wrong if I did not pause for just a moment to make clear 
that changes in government organization are vastly important, 
but are still only a part of what we need to do. If we do not 
carry out all important recommendations we have outlined in 
foreign policy, in border security, in transportation security, 
and in other areas, reorganizing the government alone is not 
enough to make us safer and more secure.
    I know there is a fascination in Washington sometimes, I 
guess, with bureaucratic solutions--rearranging the wiring 
diagrams, creating new organizations. And we do recommend some 
important institutional changes. We will articulate and defense 
those proposals. But, of course, reorganizing government 
institutions is only part of the agenda that is before us all.
    Some of the saddest aspects of the 9/11 story are the 
outstanding efforts of so many individual officials straining, 
often without success, against the boundaries of the possible. 
Good people can overcome bad structures. They should not have 
to.
    We have the resources and we have the people. We need to 
combine them more effectively to achieve that unity of effort 
that we are all seeking. This morning, we will address several 
major recommendations on how the Executive Branch, we believe, 
can simply work better. They have to unify strategic 
intelligence and operational planning against Islamic 
terrorists across the foreign-domestic divide with a National 
Counterterrorism Center; they must unify the intelligence 
community with a new National Intelligence Director; they must 
unify the many participants in the counterterrorism effort and 
their knowledge in a network-based information-sharing system 
that transcends traditional national boundaries; and we must 
unify our national effort by strengthening the ability of the 
FBI and homeland defenders to carry out the counterterrorism 
mission.
    We will address each of these in turn.
    The National Counterterrorism Center. Our report details 
many unexploited opportunities that we could have used, really, 
to disrupt that September 11 plot: The failures to watchlist, 
the failures to share information, the failures, as so many 
have put it, to connect the dots. The story of Hazmi and 
Mihdhar in Kuala Lumpur in January 2000 is a telling example. 
See, there we caught a glimpse of the future hijackers, but we 
lost their trail in Bangkok. Domestic officials were not 
informed until August 2001 that Hazmi and Mihdhar had entered 
the United States and were living very openly here. They 
started then to pursue some late leads, but on September 11, 
time simply ran out.
    We could give you any number of other examples, and will, 
if you would like, where we find no one was firmly in charge of 
managing the case. No one was able to draw relevant 
intelligence from anywhere within the government, assign 
responsibilities across the agencies--and that is foreign or 
domestic--track progress, and quickly bring these things 
forward so they could be resolved. In other words, as we have 
said, no one was the quarterback. No one was calling the play. 
No one was assigning roles so that government agencies could 
execute as a team and not as individuals.
    We believe the solution to this problem rests with the 
creation of a new institution, the National Counterterrorism 
Center. We believe, as Secretary Rumsfeld told us, that each of 
the agencies needs to ``give up some of their existing turf and 
authority in exchange for a stronger, faster, more efficient 
government-wide joint effort.'' We, therefore, propose a 
civilian-led unified joint command for counterterrorism. It 
would combine intelligence--what the military, I gather, calls 
the J-2 function--with operational planning--which the military 
calls the J-3 function. We would put them together in one 
agency, keeping overall policy direction where it belongs, in 
the hands of the President and in the hands of the National 
Security Council.
    We consciously and deliberately draw on the military model, 
the Goldwater-Nichols model. We can and should learn from the 
successful reforms in the military that were done two decades 
ago. We want all the government agencies that play a role in 
counterterrorism to work together, to have one unified command. 
We want them to work together as one team in one fight against 
transnational terrorism.
    The National Counterterrorism Center would build on the 
existing Terrorist Threat Integration Center and replace it and 
other terrorism ``fusion centers'' within the government with 
one, unified center.
    The NCTC would have tasking authority on counterterrorism 
for all collection and analysis across the government, across 
the foreign-domestic divide. It would be in charge of warning.
    The NCTC would coordinate anti-terrorist operations across 
the government, but individual agencies would continue to 
execute operations within their competencies.
    The NCTC would be in the Executive Office of the President. 
Its chief would have control over the personnel assigned to the 
center and must have the right to concur in the choices of 
personnel to lead the operating entities of the departments and 
agencies focused on counterterrorism, specifically the top 
counterterrorism officials at the CIA, FBI, Defense and State 
Departments. The NCTC chief would report to the National 
Intelligence Director.
    Now, we appreciate, as we talked about this on the 
Commission, that this is a new and difficult idea for those of 
us schooled in the government that we knew in the 20th Century. 
We won the Second World War and we won the Cold War because the 
great departments of government--the State Department, the 
Defense Department, the CIA, and the FBI--were organized 
against clear nation-state adversaries. Today, we face a 
transnational threat. That threat respects no boundaries and 
makes no distinction between foreign and domestic. The enemy is 
resourceful, it is flexible, and it is disciplined. We need a 
system of management that is as flexible and resourceful as the 
enemy we face. We need a system that can bring all the 
resources of government to bear on the problem and that can 
change and respond as the threat changes. We need a model of 
government that meets the needs of the 21st Century. And we 
believe that the National Counterterrorist Center will meet 
that test.
    I will now introduce my Vice Chairman, really my Co-
Chairman, Lee Hamilton, who has not only been a wonderful 
colleague, but has taught this country boy from New Jersey a 
tremendous amount about that whole subject.

 TESTIMONY OF HON. LEE H. HAMILTON,\1\ VICE CHAIRMAN, NATIONAL 
     COMMISSION ON TERRORIST ATTACKS UPON THE UNITED STATES

    Mr. Hamilton. Thank you very much, Chairman Kean. I want to 
say that the success, whatever it may be, of the Commission is 
very largely attributable to the remarkable leadership of Tom 
Kean, and it has been a high privilege for me to have the 
opportunity to serve with him.
---------------------------------------------------------------------------
    \1\ The joint prepared statement of Mr. Kean and Mr. Hamilton 
appears on page 63.
---------------------------------------------------------------------------
    Madam Chairman, Senator Lieberman, the distinguished 
Members of the Committee, let me also join the Chairman in 
expressing my appreciation to the Senate leadership, to you, 
Madam Chairman, to Senator Lieberman, for your initiative in 
starting these hearings so quickly and responding to our 
recommendations. We are deeply grateful to you for your 
leadership. It has been quite remarkable.
    As part of the 9/11 story, we spent a lot of time looking 
at the performance of the intelligence community. We identified 
at least six major problems confronting that community.
    First, there are major structural barriers to the 
performance of joint intelligence work. National intelligence 
is still organized around the collection disciplines of--
humint, signals, and all the rest of it--of the home agencies. 
It is not organized around the joint mission. The importance of 
integrated, all-source analysis cannot be overstated. It is not 
possible to connect the dots without it.
    Second, there is a lack of common standards and practices 
across the foreign-domestic divide for the collection, 
processing, reporting, analyzing, and sharing of intelligence.
    Third, there is a divided management of national 
intelligence capabilities between the Director of the CIA and 
the Defense Department.
    Fourth, the Director of Central Intelligence has a very 
weak capacity to set priorities and move resources.
    Fifth, the Director of Central Intelligence now has three 
jobs: Running the CIA, running the intelligence community, and 
serving as the President's Chief Intelligence Adviser. No 
person can perform all three responsibilities.
    And, finally, the intelligence community is too complex and 
too secret. Its 15 agencies are governed by arcane rules, and 
all of its money and nearly all of its work is shielded from 
public scrutiny. That makes sharing intelligence exceedingly 
difficult.
    We come to the recommendation of a National Intelligence 
Director not because we want to create some new czar or a new 
layer of bureaucracy to sit atop the existing bureaucracy.
    We come to this recommendation because we see it as the 
only way to effect what we believe is necessary: A complete 
transformation of the way the intelligence community works.
    You have a chart before you of our proposed organization. 
It is on page 413 of the book, the report. It is on the poster 
board. Unlike most charts, what is most important on this chart 
is not the top of the chart; it is the bottom.\1\
---------------------------------------------------------------------------
    \1\ The chart referred to appears in the Appendix on page 70.
---------------------------------------------------------------------------
    We believe that the intelligence community needs a 
wholesale Goldwater-Nichols reform of the way it does business, 
as the Chairman indicated. The collection agencies should have 
the same mission as the Armed Services do: They should 
organize, train, and equip their personnel. These intelligence 
professionals, in turn, should be assigned to unified joint 
commands, or in the language of the intelligence community, 
``Joint Mission Centers.'' We have already talked about a 
National Counterterrorism Center. A joint mission center of WMD 
and proliferation, for example, would bring together the 
imagery, signals and humint specialists, both collectors and 
analysts, who would work together jointly on behalf of the 
mission. All the resources of the community would be brought to 
bear on the key intelligence issues as defined by the National 
Intelligence Director.
    So when we look at the chart from the bottom up, we 
conclude you cannot get the necessary transformation of the 
intelligence community--that is, smashing the stovepipes and 
creating joint mission centers--unless you have a National 
Intelligence Director.
    He needs authority over the intelligence community; he 
needs authority over personnel, information technology, and 
security. Appropriations for intelligence should come to him, 
and he should have the authority to reprogram the funds within 
and between intelligence agencies.
    The National Intelligence Director would create and then 
oversee the joint work done by the intelligence centers.
    He would be in the Executive Office of the President. He 
would have a small staff, a staff that is really an augmented 
staff of the present Community Management staff of the CIA.
    He would not be like other czars that we have created in 
this town over a period of years who really have not had 
meaningful authority. The National Intelligence Director would 
have real authority. He will control National Intelligence 
Program purse strings. He will have hire-and-fire authority 
over agency heads in the intelligence community. He will 
control the IT. He will have real troops, as the National 
Counterterrorism Center and all of the joint mission centers 
would report to him.
    We have concluded that the intelligence community is not 
going to get its job done unless somebody is really in charge. 
That is just not the case now, and we paid the price: 
Information was not shared, agencies did not work together. We 
have to--and can--do better as a government.
    To underscore again, we support a National Intelligence 
Director not for the purpose of naming another chief to sit on 
top of the other chiefs. We support the creation of this 
position because it is the only way to catalyze transformation 
in the intelligence community and to manage a transformed 
community afterward.
    What we learned in the 9/11 story is that the U.S. 
Government has access to a vast amount of information. But the 
government has weak systems for processing and using the 
information it possesses, especially across agency lines. 
Agencies live by the ``need to know'' rule and refuse to share. 
Each agency has its own computer system and its own security 
practices, outgrowths of the Cold War. In the 9/11 story, we 
came to understand the huge costs of failing to share 
information across agency boundaries. Yet in the current 
practices of government, security practices encourage 
overclassification. Risk is minimized by slapping on 
classification labels. There are no punishments for not sharing 
information.
    We believe that information procedures across the 
government need to be changed to provide incentives for 
sharing.
    We believe the President needs to lead a government-wide 
effort to bring the major national security institutions into 
the information revolution. The President needs to lead the way 
and coordinate the resolution of the legal, policy, and 
technical issues across agency lines so that information can be 
shared.
    The model is a decentralized network. Agencies would still 
have their own databases, but those databases would be 
searchable across agency lines. In this system, secrets are 
protected through the design of the network that controls 
access to the data, not access to the network.
    The point here is that no single agency can do this alone. 
One agency can modernize its stovepipe, but cannot design a 
system to replace it. Only Presidential leadership can develop 
the necessary government-wide concepts and standards.
    The other major reform we want to recommend to you this 
morning concerns the FBI.
    We do not support the creation of a new domestic 
intelligence collection agency, the so-called MI5. We believe 
creating such an agency is too risky to civil liberties, would 
take too long, cost too much money, and sever the important 
link between the criminal and counterterrorism investigative 
work of the FBI.
    We believe Director Mueller is undertaking important 
reforms. We think he is moving in the right direction.
    What is important at this time is strengthening and 
institutionalizing the FBI reforms, and that is what we are 
recommending.
    What the FBI needs is a specialized and integrated national 
security workforce, consisting of agents, analysts, linguists, 
and surveillance specialists.
    These specialists need to be recruited, trained, rewarded, 
and retained to ensure the development of an institutional 
culture with deep expertise in intelligence and national 
security.
    We believe our other proposed reforms--the creation of a 
National Counterterrorist Center and the creation of a National 
Intelligence Director--will strengthen and institutionalized 
the FBI's commitment to counterterrorism and intelligence 
efforts. The NCTC and the NID would have powerful control over 
the leadership and the budgets of the Counterterrorism Division 
and the Office of Intelligence respectively. They would be 
powerful forces pressing the FBI to continue with the reforms 
that Director Mueller has instituted.
    Taken together, then, we believe these reforms within the 
structure of the Executive Branch, together with reforms in 
Congress, and the other recommendations referred to by the 
Chairman, can make a significant difference in making America 
safer and more secure.
    We believe that reforms of the Executive Branch structures 
are vitally important, and we are immensely pleased that this 
Committee is focusing on those reforms today as a way of making 
America safer. We are especially pleased that your Committee is 
taking the lead with regard to this, and with these words, we 
close our testimony and we would be pleased to respond to 
questions.
    Chairman Collins. Thank you both for excellent statements. 
We are now going to begin 10-minute rounds of questions for 
each member. I would note that the only lights are right here 
and they are a little bit hard to see, but we will try to help 
make sure that everybody gets the full 10 minutes.
    Congressman Hamilton, I would like to start my questioning 
with you because of the role that you played as Chairman of the 
House Select Committee on Intelligence as well as the many 
other hats that you have worn. Some observers suggest that the 
overall effect of the intelligence reorganization that the 9/11 
Commission has recommended would be to diminish the influence 
of the CIA, to considerably increase the importance of the 
Pentagon, and to give the White House more direct control over 
covert operations.
    Former CIA Director Robert Gates, for example, has said 
that the recommendation to place the new National Intelligence 
Director within the Executive Office of the President troubles 
him because that official would oversee intelligence operations 
both inside the United States and abroad. He cites the problems 
that have been caused when the White House has directly ordered 
covert activities, noting Oliver North's role in the Iran-
Contra scandal, as well as the Watergate scandal where the CIA 
helped those who broke into Daniel Ellsberg's office. He has 
gone even further than that and said that the Commission's 
recommendation in this regard reflects a lack of historic 
perspective.
    I would like to give you the opportunity to respond to 
those specific comments, which, as you know, are shared by some 
others within the intelligence community.
    Mr. Hamilton. Madam Chairman, we think that 
counterterrorism is the paramount national security concern of 
this Nation today. And we think it will be that for as long as 
any of us are active, for a long time. And we think it really 
is a unique kind of challenge because it cuts across so many 
areas of our government and our Nation's life.
    We found that the principal problem leading to September 11 
was that the agency simply did not share information, and so we 
have set up this structure to encourage that sharing.
    Now, why do we put the National Counterterrorism Center in 
the Executive Office of the President? That is one of the 
questions you raised. You raised a lot of difficult questions. 
We do it for two principal reasons. One is that terrorism, as I 
have indicated, is our most important national security 
priority, for this President or any President. And to be very 
candid about it, it is inconceivable to me that a President of 
the United States would want his highest national security 
priority handled somewhere else in the government that is not 
under his direct control.
    Now, keep in mind that counterterrorism policy involves so 
many different things. I mean, it is diplomacy, it is military 
action, it is covert action, it is law enforcement, it is 
public diplomacy, it is tracing money flows in the Treasury 
Department. And we have to organize ourselves in such a way 
that we can integrate and balance all of these tools of 
American foreign policy to deal with the threat of 
counterterrorism. That kind of thing can only be coordinated 
and done in the White House under the President's direct 
control. Where else would you put it? You want to put all of 
this authority in the CIA? Do you want to put it all in the 
Defense Department when you are dealing with all of these other 
aspects of counterterrorism policy? I don't think so.
    Now, the second reason we put it in the Executive Office 
building is that the National Counterterrorism Center--it is 
not just an intelligence center, but it is a center for 
operations, and it is going to be directing agencies, many 
agencies of the government working together on 
counterterrorism. And those activities are going to involve the 
CIA, they are going to involve the FBI, they are going to 
involve the Defense Department, they are going to involve the 
Department of State, and other areas of the government as well. 
You cannot coordinate those activities from a single 
department. You have to do it in the White House, I believe.
    Now, all of us have a different idea of how this government 
works best, but we concluded that we had to put this authority 
in the White House just because it is such a cross-cutting kind 
of issue.
    Is there a danger to that? Oh, sure. That is the Iran-
Contra problem. I had a little experience with the Iran-Contra 
problem.
    Chairman Collins. I recall that.
    Mr. Hamilton. So I am alert to anything where you 
concentrate power. We do have to be careful about that.
    Now, one answer is that another part of our recommendations 
is congressional oversight. It has to be robust. And so 
everything kind of fits together here. And, incidentally, among 
other things, I think it is a small thing, perhaps, that hasn't 
been too much noted in our report, we do recommend the 
establishment of a board in the Executive Branch to keep an eye 
on government intrusion, if you would. But there is no magic 
solution here with regard to the concentration of power, but I 
think we do have some real checks and balances in it.
    And, incidentally, Mr. Gates was an outstanding CIA 
Director. Anything he has to say, even if he is critical of us, 
deserves a lot of attention because he is a very knowledgeable 
person.
    Chairman Collins. He is indeed, which is why I wanted to 
give you an opportunity to respond to his concern.
    Governor, should the National Intelligence Director have a 
fixed term as the FBI Director does to help insulate that 
individual from political pressure? Or should the Director 
serve at the pleasure of the President because, after all, that 
individual would serve as the President's principal adviser on 
intelligence matters? What are your thoughts on that?
    Mr. Kean. Well, we talked about this some on the 
Commission. We had left it really to serve at the pleasure of 
the President, and I think for a number of reasons.
    First of all, if he served a term, you would, as you have 
just said, perhaps having somebody who is the President's chief 
adviser on intelligence, somebody that the last President who 
may not agree with that President picked. And that did not make 
a lot of sense to us.
    It seemed to us that as long as you had the lever of 
confirmation by the Senate and the fact that this individual 
would report to the Congress and testify before the Congress, 
that it was probably better to let him serve at the pleasure of 
the President.
    Chairman Collins. I support the concept of the National 
Intelligence Director, and I agree with the Commission's 
recommendation that would be a much needed improvement over the 
current system. I was surprised, however, that the Commission 
did not recommend that the Director be a member of the Cabinet 
or at least Cabinet level.
    This individual is going to have to deal with the Secretary 
of Defense, the Secretary of State, and the Secretary of 
Homeland Security. Wouldn't it be helpful in dealing with 
Cabinet members for that individual to have the stature of a 
Cabinet member? Governor Kean.
    Mr. Kean. We basically decided, again, after a lot of 
discussion, that it should not be Cabinet level, and the reason 
was that this is an operational position. It is not a policy 
position. This individual would be carrying out policy and 
carrying out directions and coordinating intelligence and 
moving policy. We believe that as you move through the various 
government agencies, that if this is the President's adviser in 
this area of counterterrorism, which is probably the most 
important priority that the next President or Presidents will 
have for some time, then his authority as he moves among 
various government departments will be pretty clear because it 
will come directly from the President of the United States. But 
because it was not policy, it was operational, we did not make 
him a member of the Cabinet.
    Mr. Hamilton. If I may add to that?
    Chairman Collins. Please do.
    Mr. Hamilton. The Governor is absolutely right, of course. 
One feature in our thinking here is it just takes a long time 
to set up a department. If you look at the Department of 
Energy, some of us were around when that was set up a long time 
ago, 20 or 25 years ago. It is still having problems in 
organizing and functioning as a department.
    The Department of Homeland Security is a major 
reorganization of government, just getting underway, and it has 
excellent leadership, but it has growing pains.
    So we were reluctant to say, OK, let's come along and set 
up another whole department of government.
    Intelligence is a support function, and it is a support 
function for the President, it is a support function for each 
of the key departments of government, all of them, and we did 
not think you should have a department of government performing 
a support function. And they are, as Tom has indicated, the 
principal reasons.
    Chairman Collins. Thank you. Senator Lieberman.
    Senator Lieberman. Thanks, Madam Chairman. Let me join you 
in thanking the Members of the Committee first for changing 
their schedules and coming back so quickly. A measure of the 
sense of urgency in the Congress is that we also have a non-
member of the Committee, Senator Bill Nelson of Florida, who 
cares enough about this to be here with us today, and I thank 
him for attending the hearing.
    Gentlemen, in your report you document more completely, and 
I would say more unnervingly than I have seen anywhere before, 
the lost opportunities to have done something that might well 
have prevented September 11 from occurring: The failure of the 
agency to share information, the failure to connect the dots, 
etc.
    We are coming up to the third anniversary of September 11. 
A lot has been done by Congress, by the Executive Branch, to 
try to fix some of that, but clearly, in making the 
recommendations you have, you believe much more substantive 
reform is necessary.
    To document the urgency of your recommendations, I wonder 
if you could answer a few questions that go to the status quo 
today, post-September 11.
    For instance, maybe you have anecdotes or examples you 
could cite of continuing failure to share information or 
continuing inability, without a quarterback, as you say, to 
coordinate the resources of the Federal Government in the 
battle against terrorism.
    Mr. Kean. I can say that as we proceeded with our work, we 
ran into numerous occasions where we found out information that 
one agency had, and sometimes highly classified information 
but, nevertheless, something that should have been shared with 
other agencies in this fight against Islamic terrorism. And it 
wasn't. It still wasn't. The last example of that I think was 
perhaps some 3 weeks or a month ago that we were all amazed to 
find something that, again, was boxed into one silo and was not 
being shared across the larger community.
    Senator Lieberman. Congressman Hamilton, do you have any 
examples of the continuing problems today that should propel us 
to respond to your recommendations?
    Mr. Hamilton. Well, Senator, that is a very hard thing to 
tie down. I think you are absolutely right when you say that a 
lot has been done. I don't have any doubt about the sincerity 
of the officials, their willingness, their desire to make 
substantial improvements. And if you talk to any of these 
officials, they will give you a list of 10 or 15 points that 
they have done.
    Now, have they actually been implemented all the way? That 
is where it gets tough to check. But we all pick up the paper, 
we read about the Governor of Kentucky flying in here. That was 
a problem. I saw a report the other day--I am sure it is 
available to you--about the mistakes we continue to make in 
screening airplane passengers. We all know about the cargo 
problem coming in.
    So we find a desire to move ahead, but the whole government 
just is not acting with the urgency we think is required across 
the board, whether it is screening for cargo or checking 
airplane passengers or checking the airspace or whatever. Lots 
of good things have been done, but much more needs to be done. 
And what seems to us to be lacking is that real sense of 
urgency.
    Senator Lieberman. Congressman Hamilton, let me go back and 
quote in part from you what I quoted earlier in my opening 
statement: ``A critical theme that emerged throughout our 
inquiry was the difficulty of answering the question: Who is in 
charge? Too often, the answer is no one.''
    Who is in charge today?
    Mr. Hamilton. The answer you get--and we asked that 
question in multiple forms--is always the President. But, of 
course, the President has enormous responsibilities, and it is 
not a very satisfactory answer.
    So I think you then get--the second answer is, well, the 
top officials, the FBI Director, the Director of CIA, the 
Secretary of Defense and others have good working relationships 
and they meet together frequently. And I think they do, and I 
think there is some genuine sharing back and forth that is an 
improvement over the pre-September 11 period. But I think you 
have to institutionalize that. And I do not find today anyone 
really in charge--you can't possibly argue today that the CIA 
Director is in charge of the intelligence community. That just 
does not stand up.
    Senator Lieberman. Let me ask a more targeted question, and 
also thank you for that--the answer both of you have given 
argues for the urgency with which we should approach our 
response to your recommendations.
    Clearly, one of the main goals of our current 
counterterrorism policy is to find and capture or kill Osama 
bin Laden. Is it clear to you that anyone is in charge of that 
search in our government today?
    Mr. Hamilton. Well, my impression is that the military is 
in charge, the Defense Department. We have, I think it is 
somewhere between 10,000 or 15,000--I am not sure of the exact 
number--military forces in Afghanistan. They are not engaged in 
securing the country. That is a NATO responsibility, which I 
have some problems with it. But our troops there are in the 
southern part of the country on the border now, and I believe 
the search, my impression is, is really very much under control 
of the military. Now, a lot of intelligence assets are in place 
to try to locate Osama bin Laden and his team.
    I do not have a feeling that--well, we are not critical of 
this at all. We did not get into that in great detail. But that 
is my sense of it.
    Senator Lieberman. Governor, do you want to add anything to 
that?
    Mr. Kean. In a sense, what is going on now with Osama bin 
Laden went beyond our mandate. We had to set some limit to the 
time of our research and our work. And I have the same 
information, really, that Lee Hamilton just gave you. But I do 
not have anything further.
    Senator Lieberman. I do not want to continue too much on 
this point, but the military, to the best of your knowledge, is 
in charge of the search for bin Laden. Hopefully, presumably, 
they are cooperating with the intelligence agencies and others. 
But in the reform that you recommend, it would be clear who was 
in charge. The National Intelligence Director would be in 
charge in marshalling all the resources of the various agencies 
to pursue and capture or kill bin Laden.
    Let me ask a very different kind of question about our 
mission on this Committee. I take it to be the charge from 
Senator Frist and Senator Daschle that we are to consider and 
act legislatively on any of your recommendations that deal with 
the Executive Branch of government and would be benefited by 
legislation. In listening to your statements when the report 
was issued, I concluded that you felt that the two top 
priorities were the creation of a National Intelligence 
Director and a National Counterterrorism Center.
    I think our goal here is to prioritize and just go through 
as many of these recommendations as possible and adopt them as 
quickly as we can. What would you two list as the other urgent 
recommendations that should be priorities of ours after the 
National Intelligence Director and the National 
Counterterrorism Center?
    Mr. Kean. Well, one that may not be and the very difficult 
ones that are not in the purview possibly of your Committee 
involve the Congress and ways to improve oversight. They are 
very important. Most of our recommendations do not require a 
lot of money, frankly, to implement. One that does is border 
screening, to move ahead a little faster with biometric 
identification, ways in which we can secure our borders, 
national standards for driver's licenses and means of 
identification, things that would make us safer in terms of 
people who are moving around this country without clear forms 
of identification or who get into this country without proper 
means of doing so.
    Senator Lieberman. Is that something, Governor, that we are 
talking about in legislative appropriations? Or would we be 
considering that a priority to authorize by statute, to give 
the Executive Branch more authority than they have now to set 
up the kind of screening system that the Commission has 
proposed?
    Mr. Kean. I am not sure what it would take. I am not an 
expert in how much of this is authorization, and how much of it 
you can empower the President to do. But I think it would 
certainly take appropriations, because that is the one--as I 
remember, it is the one part of our report that really is going 
to take some money.
    Mr. Hamilton. It is not an easy question to answer how you 
implement these recommendations. I am very pleased that you 
have focused on the two big ones. They clearly are the two big 
ones. The third one, the reform of the Congress on oversight, 
we think is right up there very close to those two.
    From that point on, I think many recommendations kind of 
merge in my mind. Some of them could be handled, like the 
border security problems, largely with an infusion of money. 
The big cost in our recommendations is really border security 
and not the organizational change that we have been talking 
about thus far.
    I think a lot of things can be done by Executive order. 
Now, there is always the question whether it is better to do it 
by statute.
    Senator Lieberman. Right.
    Mr. Hamilton. And usually, given my background, you would 
expect me to say that it is better to have a statute in back of 
it. But I read in the paper that the President is thinking 
about some actions, and I am quite sure he will move in some 
areas by Executive order.
    Senator Lieberman. My time is up, but just very briefly, I 
believe I also heard you mention the FBI changes as a priority.
    Mr. Hamilton. We did. The information sharing across 
agencies--very important--really has to be done by the 
President. I do not think that can be done by the Congress. It 
is setting common standards across the Executive Branch, and 
the FBI, I do not think requires legislative action. I think it 
can continue to be done by the Director. The President may want 
to weigh in there with an Executive order. I do not know. But I 
think that could be done by the Executive Branch.
    Mr. Kean. But the FBI recommendations do, at least in our 
minds, really call for very strong congressional oversight. We 
applaud what the Director is doing, Director Mueller. He is 
moving in exactly the right direction. But we have a tremendous 
fear, after looking very hard at the FBI, that when he and his 
top two or three people may move on, that a lot of the FBI 
would like to move back to just the way they were, like to go 
back, if you like, to breaking down doors again. And they did 
that very well over a number of years and brought a lot of 
people to justice. But we are asking them to have this other 
function now of finding and disrupting plots against the United 
States of America. And we want to make sure that the people who 
are in that line of work have the same recognition within the 
FBI, have the same chances for advancement, have the same 
chance to assume eventual leadership in the organization and 
are not downgraded. And we worry that if there is not Executive 
action and strong congressional oversight that the FBI, after 
this leadership departs, could start moving back in the other 
direction again.
    Mr. Hamilton. We do not have strong views about how you 
implement. I really think that is your job more than ours, and 
the Executive Branch. We would defer to you as to the best way 
to implement these, and we did not try to spell out the 
implementation.
    Senator Lieberman. That is very helpful. Thank you very 
much. I think I can speak for the Chairman and say that we are 
very honored that the Senate leadership has given us 
responsibility for the Executive Branch changes you recommend, 
and we are very grateful that the Senate leadership has not 
given us responsibility for the Legislative Branch changes that 
you recommend. [Laughter.]
    Chairman Collins. I concur. Senator Voinovich.

             OPENING STATEMENT OF SENATOR VOINOVICH

    Senator Voinovich. Thank you, Madam Chairman, for holding 
this hearing.
    Chairman Kean and Vice Chairman Hamilton, thank you for 
your extraordinary service to our Nation during these difficult 
times. Your work has been invaluable in providing discerning 
insight into the pre- and post-September 11, 2001, world, and I 
commend you for your exemplary bipartisan cooperation.
    What we do with your recommendations will have a major 
impact on our national security and ability to respond to Osama 
bin Laden's 1998 declaration of war against the United States 
of America and our response to Islamic extremism, which 
threatens world order and the well-being of the United States 
of America.
    Madam Chairman, the 9/11 Commission's recommendations to 
establish a National Intelligence Director and a National 
Counterterrorism Center would constitute, as we all know, an 
unprecedented restructuring of the U.S. intelligence community. 
However, we must not only focus on the organization and 
structure of the intelligence community, but also address the 
capacity of its component agencies to execute their missions in 
terms of their human capital management and information 
technology.
    Governor Kean, you said good people can overcome bad 
structures, but they should not have to. I would like to say 
that good structures without good people with good 
interpersonal skills cannot be successful.
    We had a coach at Ohio State named Woody Hayes who used to 
say, ``You win with people.''
    In March 2001, former Defense Secretary James Schlesinger, 
a member of the U.S. Commission on National Security in the 
21st Century, the Hart-Rudman Commission, testified before this 
Committee and said that, ``It is the Commission's view that 
fixing the personnel problem in the national security 
establishment is a precondition for fixing virtually everything 
else that needs repair in the institutional edifice of the U.S. 
national security policy.''
    As the Members of this Committee know, I have been focused 
on addressing the Federal Government's human capital 
challenges. The Office of Personnel Management just released a 
report pursuant to legislation I introduced to review the 
personnel system for Federal law enforcement agents who are 
critical to keeping us secure at home. The 9/11 Commission, 
your Commission, made several recommendations in the area of 
human capital, and it is critical that they are not overlooked 
as we proceed with legislation to create new leadership and 
operational structures in the community.
    Now, we have been just talking about the FBI, and the 
Commission did not recommend a dedicated domestic surveillance 
agency; instead, it recommends strengthening the FBI's existing 
capabilities. Others have suggested creating an agency within 
the FBI that would only focus on terrorism.
    My concern is this: Shouldn't there be a Federal agency 
which focuses solely on catching the terrorists who have 
infiltrated the United States and are plotting the next 
terrorist attack? The question is: Will the FBI, which will 
still be investigating organized crime and civil rights issues, 
be able to do the mission?
    We had a hearing in another committee that I belong to, the 
Foreign Relations Committee, on organized crime and corruption. 
And at that hearing we heard about the Russian mafia's 
operation in the United States. I asked the question: With your 
new counterterrorism responsibilities, do you have the human 
resources to deal with that problem? And the answer came back: 
No.
    It seems to me that if we are talking about concentrating 
on terrorism that we should be very careful in terms of tasking 
agencies and making sure that if we have tasked them with more 
than what they have traditionally done, that they have the 
added resources to get the job done.
    I would like your response to that.
    Mr. Kean. I think there is no question about that. You 
cannot task an agency without giving them the resources. We 
believe that the FBI under the present Director's reforms, if 
they are carried out fully--and they still have some ways to 
go--can perform both functions as long as it is understood that 
both functions are a high priority of the agency. But you are 
absolutely right, you have got to give them the resources. 
There has been an appalling lack of language skills in the FBI, 
an appalling lack of a number of other skills that we need in 
the agency if it is going to perform the kind of functions you 
just elaborated. So I would answer yes, I guess.
    Senator Voinovich. The other thing that bothers me is that 
George Tenet said before your Commission that it would take at 
least 5 years to rebuild the CIA Directorate of Operations, and 
an important part of that process would be bringing in new 
people with the right skills and background.
    In your examination of the intelligence community, how 
would you assess its workforce? You have heard from many of 
these people. Did you get into the quality and the numbers of 
their workforce?
    Mr. Kean. Yes, and I found Director Tenet's answer just 
unacceptable because we have not got 5 years. We simply have 
not got 5 years.
    Now, I know and we all know that there has been a lack over 
the years in what we call human intelligence. We spent a 
tremendous amount of the budget on mechanical--not mechanical 
devices, but new high-tech devices, from satellites to the 
Predator, which are all useful but do not take the place of 
human intelligence on the ground, and we did not, in my 
opinion--and I think the Commission's opinion--put enough 
resources into some of those, and those are the areas in which 
we have got to rebuild.
    I think we have got to look at our recruiting techniques, 
whether or not they are too limited in a sense, whether we are 
overlooking some people in this country who already have those 
language skills and could be helpful in this operation.
    Now, we were not sanguine about the CIA's present 
capability based on a human capability to do its job.
    Mr. Hamilton. Senator, I really appreciate your emphasis on 
the human capital and the training of our people because I 
think you recognize--and I hope we recognize--how critically 
important it is to have well-trained people.
    I want to say that the National Intelligence Director, as 
we perceive that responsibility, would have very large 
personnel responsibilities. He or she is going to establish 
standards for education and training and make assignments 
across these national intelligence agencies. And you would put 
in that one person major responsibility for improvement of your 
personnel.
    The second point I would make with regard to the FBI is 
that while we think they are moving in the right direction, 
they have got a long way to go in terms of having a 
specialized, integrated national security workforce. We all 
know the culture and the shape of the FBI over a period of 
years has been law enforcement. If you want to get ahead in the 
FBI, you do it on the law enforcement side. That is where the 
FBI has made its name. And the intelligence side, which is 
important, has not had the same kind of emphasis. And what we 
want to see in the FBI is a national security workforce or 
intelligence workforce that is highly trained, highly 
specialized, and has all of the skills that are necessary.
    Senator Voinovich. What you need to do, though, is to have 
a personnel system that is flexible, that is competitive, that 
can attract the best and brightest people into those agencies, 
and also certainly the people that are getting the job done.
    We have a budget problem. We have a growing deficit here. 
And you say that what you are suggesting here is not going to 
cost a lot of money. I think that it will cost a lot of money 
if we are going to staff those agencies with the right people 
with the right skills and knowledge. One of the things that 
this Congress is going to have to consider is where are we 
allocating resources.
    We spend a whole bunch of money on armament around here. We 
spend all kinds of money on all the new gadgets, as you have 
said, and everything else. And I think we ought to start 
looking at taking some of that money and putting it into 
intelligence and diplomacy and some of the other things that 
you talked about, because this war against terrorism is not 
going to be won necessarily with more bombers and missiles.
    Mr. Hamilton. One of the very important things here is 
diversity. To be very blunt about it, the kind of people you 
need in many aspects of the CIA today are not people like me 
who come out of the Midwest, who are white, who do not speak 
languages, and graduated from Indiana University. Maybe they 
come from Ohio State University, Senator. I do not know. 
[Laughter.]
    But you have really got to have diversity. You have got to 
have people that speak these languages, and most of these 
language we cannot pronounce let alone speak the language.
    Senator Voinovich. Congressman, after September 11, I 
thought the most incredible thing that happened is that the 
State Department, the CIA, and the FBI said, ``Is there anybody 
out there that can speak Arabic and Farsi?'' And I thought to 
myself, as a former Governor and the commander-in-chief of the 
Ohio National Guard--and we fought in the Persian Gulf War--
that 10 years later the light bulb would have gone on in 
somebody's head and said, ``We need to go out and attract 
people that can speak Arabic and Farsi so that we can deal with 
this new challenge that we have.''
    Mr. Kean. Senator, the two things we need, the two biggest 
needs, are analysts and linguists. Those are the two things we 
do not have. You are absolutely correct, but part of this 
concern is what underlay our recommendation that 
counterterrorism forces be combined and not duplicated across 
the government, fewer fusion centers across the government, to 
pool expertise in the National Counterterrorism Center. We 
think that would go some way to meeting the kind of problems 
which you have rightly outlined.
    Senator Voinovich. Thank you.
    Chairman Collins. Thank you. Senator Levin.

               OPENING STATEMENT OF SENATOR LEVIN

    Senator Levin. Thank you, Madam Chairman, and thank you 
both for your great service to this Nation before, during, and 
after your service on this Commission. You are going to 
continue to fight for the reforms that you have proposed, and I 
think that is further testament to your dedication to this 
land, and we are all appreciative of it.
    I believe a top priority of reform must be greater 
independence and objectivity of intelligence analysis which is 
provided to our policymakers--intelligence, analysis, and 
threat assessments which are not influenced and not tainted by 
the policies of whatever administration is in power. This has 
been a problem throughout the course of recent decades, right 
up to current time.
    When you propose, as you do, to--well, first of all, do you 
agree that a high priority should be the objectivity and the 
independence of the analysis, both threat analysis and 
intelligence analysis? Governor Kean.
    Mr. Kean. Yes, absolutely. And we believe that has to be 
and continues to be a high priority no matter which agency that 
information is coming from.
    Senator Levin. And how does placing your Director, your 
proposed Director, in the White House, even closer than the 
current CIA Director--and there were plenty of issues about 
just how independent that threat analysis and intelligence 
analysis was. But putting aside that question for the moment, 
how does putting the Director even closer to the policymaker do 
anything other than to make this problem even more difficult?
    Mr. Kean. I think it is a tremendous problem. I think all 
of us recognize that the separation of intelligence and policy 
is very important. Those of us who have dealt with it know that 
it is also impossible to achieve completely. You are always 
going to have interaction here, and you want to build, I guess, 
some barriers or some walls so you do not have excessive 
politicization.
    But I think it is unrealistic to think that you can build 
any kind of a structure where you have none at all.
    Senator Levin. Well, but that is not the issue, is it? You 
are tearing down a wall. You are not building a wall. Aren't 
you putting that person closer to the policymakers?
    Mr. Hamilton. Let me respond in this way. First of all, 
under the present structure, you cannot say you get good 
competitive analysis. That is what you just issued your report 
on, group think. And that means you do not get competitive 
analysis. So the way we are doing it now is not working if you 
want competitive analysis.
    Second, the same kind of arguments were made when the 
competitive analysis--they sound an awful lot like the 
arguments against organizing the Joint Chiefs of Staff when 
Goldwater-Nichols came into play.
    We, today, have the best military in the world, and it 
performs far better today because of joint commands than it did 
when you had separate commands. Now, we want to do the same 
thing in the intelligence area.
    The third point would be that not all of the analysis is 
going to fall under the Director. If you look back over recent 
experience, where did you get the most independent analysis? 
You got it from INR. We do not change that at all. State, 
Treasury, Energy, Army, Navy, Air Force, and Marines would all 
still function like they do today. You have exactly the same 
situation. In other words, they would be independent, and there 
is one other thing we add that will increase your competitive 
analysis, and that is a little, tiny word in this chart over 
here that says ``open'' sources.\1\
---------------------------------------------------------------------------
    \1\ The chart referred to appears in the Appendix on page 70.
---------------------------------------------------------------------------
    If you look back over the experience of September 11, we 
have said that the American people, not just the leaders, did 
not get it, did not have the imagination. The reason our 
criticism is so broad is because almost all of the information 
was available in open sources. And so we want to elevate open 
sources in this process of intelligence because we think it is 
critically important to have these people expert in the 
cultures, and the languages that we have already talked about.
    Senator Levin. In addition to the----
    Mr. Hamilton. So, Senator, I don't see any reduction of 
competitive analysis in what we have said. I think it is a 
problem today, and I think what we have suggested will increase 
the prospect for competitive analysis, which is what you want.
    Senator Levin. I think that is a major question for anybody 
who is restructuring to consider.
    Mr. Hamilton. It is.
    Senator Levin. As to whether or not you are going to 
increase or decrease further the independence of those analyses 
and those assessments.
    There is another issue here too which is created when you 
move the head of intelligence into the Executive Office of the 
President, and that is that you point to congressional 
oversight as being the antidote or the check-and-balance on 
that, in part, but the closer you move decisionmaking and 
conversations to the White House, the more privilege the White 
House always claims to those conversations and those decisions.
    And you put great emphasis on oversight, and by the way, I 
could not agree with you more on the failures of oversight, the 
need for additional oversight, but by moving it into the 
Executive Office of the President, moving that Intelligence 
Director, because that is closer to the President and the 
privileges which Presidents, particularly this President, have 
claimed, are you not making congressional oversight more 
difficult?
    Mr. Kean. When we were meeting with people from the 
Executive Branch and briefing them on these recommendations, 
one of the President's staff said to me, ``You recognize that 
any conversation this person has will be subject to 
congressional hearing.''
    And I said, ``Yes.''
    And that person said, ``Well, you know, that means they 
might not be included in every conversation.''
    And I said, ``So be it,'' but the understanding of the 
Commission, and I think the understanding of the Executive 
Branch, when we briefed them on this, that there would be no 
executive privilege involving this individual because they 
would be subject to Senate confirmation, and Senate hearings, 
and they would not be one of those officials that the President 
appoints directly without Senate confirmation, and that is the 
area, I gather, where executive privilege is always invoked.
    Mr. Hamilton. The point I want to make is that the agencies 
remain as they have been, under our proposal. They have their 
investigative powers, they have their legal responsibilities, 
their constitutional limitations. Their authorities really do 
not change. What changes is that the National Intelligence 
Director has enough authority to ensure that you share 
information back and forth.
    I think, Senator, the concentration of authority is always 
worrisome, and you have really got to look at it very 
carefully, and that is why we try to build in, as much as we 
can, checks and balances. But I do not think our 
recommendations fundamentally change the balance of power, if 
you would, with respect to the executive.
    Senator Levin. One of the things that you do hear for the 
first time is that you would give the National Counterterrorism 
Center head the authority to assign operational tasks to other 
agencies so that you could have this second person in command, 
below the National Intelligence Director, actually tasking, for 
instance, Defense Department personnel.
    Would you agree with that?
    Mr. Kean. Yes.
    Mr. Hamilton. Yes.
    Senator Levin. Now, that, does it not, creates a problem of 
disunity of command, for instance, inside the Defense 
Department. You will be getting someone inside the Defense 
Department, getting a tasking requirement from presumably 
inside his own department, inside his own commander or her own 
commander at the same time someone from outside that department 
can task that person in the Defense Department to carry out a 
certain task.
    Mr. Hamilton. One of the National Intelligence Directors, 
he has three deputies, and one of them is the Deputy for 
Military Intelligence, and his job is exactly the question of 
serving the military requirements and balancing the needs of 
the military and the national policymakers. The Army, the Navy, 
the Air Force, and the Marine Corps intelligence elements are 
going to remain exactly as they are today under the Secretary 
of Defense, just like the elements remain for the State 
Department, and the Treasury and the others.
    Look, there is no magic solution here, and every move you 
make has some advantages and has some disadvantages. We think 
the advantage is, first, of sharing information, and second, of 
having someone in charge of managing the situation is critical, 
and you don't have that today, Senator.
    If you go back to the example I think the Chairman used in 
the opening statement of these two fellows running around in 
Bangkok, and then later on the West Coast, we had all kinds of 
information about those people over here, over there, over 
yonder within the Federal Government. What didn't happen was we 
didn't put it all together, and nobody took responsibility for 
managing the case. Intelligence doesn't usually come to you and 
say, ``OK. The World Trade Center is going to be hit at 9 
o'clock in the morning.'' That is not the kind of intelligence 
or you might get that if you are lucky. Ordinarily, you get 20 
or 30 pieces of information, and somebody has to put it 
together, and somebody has to manage it.
    Senator Levin. And one other thing, if I can just conclude 
with this. And we went into that case in great detail at the 
Joint Committee on Intelligence between the House and the 
Senate. There were people that had responsibility to report the 
presence in the United States of those two men. They knew they 
came here from Bangkok. The CIA knew it. There were people in 
the CIA who were responsible for reporting this to the INS and 
to the FBI. They failed in their jobs.
    And then we had people here, in the FBI, at the bin Laden 
desk, who received information from local FBI offices who did 
nothing with that information, who failed to do their job, and 
nobody was held accountable for failing to do their jobs. And 
that is something, it seems to me, that is critically 
important, and I don't see a lot in your report on holding 
people accountable because there we had people who had jobs to 
notify the INS, notify FBI, that those two guys had entered the 
United States. They knew it, and they failed to do it.
    And when I asked that question of the CIA Director, and I 
asked the same question of Mr. Mueller about the FBI reports 
just falling through the cracks inside the United States, the 
answer was they will let us know what action will be taken, in 
terms of holding individuals accountable for those failures.
    So, yes, we have got to address that issue. The 
accountability issue is an important one. Thank you.
    Mr. Kean. Absolutely, Senator. And you know one of things 
we found, and you probably did in your inquiry, also, is it was 
not just problems of sharing from agency to agency, it was 
problems sharing within the agencies----
    Senator Levin. Absolutely.
    Mr. Kean [continuing]. That was such a problem. We hope 
this structure will force that sharing of information and also 
put somebody in charge.
    Senator Levin. Thank you.
    Chairman Collins. Senator Coleman.

              OPENING STATEMENT OF SENATOR COLEMAN

    Senator Coleman. Thank you, Madam Chairman.
    I would like to focus a little bit on where we were, where 
we are at today, and then, most importantly, where we have to 
go tomorrow.
    As I read this--and it makes, by the way, very compelling 
reading. It could almost be fiction, but it is not. It is 
nonfiction--but, in part, and what struck me reading about the 
day, September 11, the absolute inability to grasp, as it was 
happening, what was happening, the inability to grasp, even as 
planes hit the tower; you know, folks, the lack of 
understanding that we have got a problem with planes being 
missiles. So we are still getting ID and tag by folks in the 
air, when others think there has been a command to intercept 
because we can't imagine the unimaginable.
    I would sense, and it goes back to Senator Voinovich's 
concern, after the 1991 Gulf War, we never thought about 
getting human capacity on the ground to increase intelligence 
capability to perhaps help us understand that.
    So we came from a place where we cut back on intelligence. 
We did not develop the human capacity to allow us then to think 
the unthinkable.
    [The prepared opening statement of Senator Coleman 
follows:]
             PREPARED OPENING STATEMENT OF SENATOR COLEMAN
    I am delighted to be here today to discuss the recommendations of 
the National Commission on the Terrorist Attacks Upon the United 
States. I have already read much of the Commission's report and am 
extremely impressed with both its thoroughness and the unanimity behind 
the Commission's recommendations. America owes both the Commission 
members and their staff a debt of gratitude.
    I am gratified that our leaders are acting quickly upon the 
recommendations. President Bush has already announced his intention to 
sign a set of executive orders implementing many of the Commission's 
suggestions. Soon after the report was released Majority Leader Frist 
and Minority Leader Dashle jointly charged this Committee and others 
with holding hearings and reporting legislation to the full Senate by 
October 1. I have already conveyed to Chairman Collins my desire to be 
actively involved in helping her meet this deadline. The Senate 
leadership is also forming a task force to study the Commission's 
recommendations concerning Congressional oversight of intelligence and 
homeland security.
    Over the next few months we will have an opportunity to reform this 
nation's approach to gathering, analyzing, and using intelligence. We 
will examine further improvements in how our nation guards against 
terrorism. There is no doubt that the issues are complicated and that a 
range of legitimate views exists. But with the Commission's report 
supporting us, we should be able to cut through many of the 
jurisdictional and bureaucratic obstructions that so often delay and 
warp real reform and concentrate instead on the underlying merits of 
various proposals.
    But the task before us should not detract from the enormous 
accomplishments we have already made. As the Commission notes, we are 
safer today. In large part that is thanks to the efforts of first 
responders and other Federal, State, and local officials across the 
nation. But our progress also reflects the strong leadership of both 
President Bush and Congress. We do not take the safety of Americans 
lightly and we have already acted.
    In the last 3 years we have implemented several accomplishments:
    <bullet>  We have inflicted a crushing military defeat on al Qaeda 
and its state sponsor in Afghanistan. Although some of their leaders, 
including bin Ladin, remain at large, there is no doubt that their 
capacity to train, fund, and organize terrorist strikes on America is 
substantially diminished.

    <bullet>  We have dethroned one of the world's most heinous 
dictators in Iraq. The leader of a regime that brutalized its own 
people, threatened our allies in the Middle East, and did everything it 
could to acquire weapons of mass destruction.

    <bullet>  We have worked with Pakistan and Saudi Arabia to change 
their attitudes regarding terrorism and the ideologies that feed it. 
Saudi Arabia is beginning to deny terrorists any safe haven within its 
borders. Working with Pakistan, we have uncovered a global network for 
disseminating nuclear technology and equipment led by one of Pakistan's 
top scientists.

    <bullet>  Strong U.S. leadership has led to dramatic reversals in 
the policies of Libya and even Iran regarding their willingness to 
admit and disclose past efforts to acquire nuclear technology.

    <bullet>  Early last year Congress completed the most sweeping 
reorganization of the Federal Government since WWII when it created the 
Department of Homeland Security. For the first time a major department 
exists with the primary task of protecting America's heartland and 
borders from terrorist attacks.

    <bullet>  The Patriot Act has allowed all levels of law enforcement 
to gather and use information on terrorist activity in more coordinated 
ways. Key improvements include eliminating the wall between domestic 
and foreign intelligence and enhanced powers to track financial 
transactions. The fact that some provisions of the Act have generated 
controversy should not blind us to the broad consensus that lies behind 
most of it.

    <bullet>  The United States is actively trying to spread the 
benefits of political freedom and economic prosperity to the Middle 
East. The President has stressed the need for internal reform in his 
discussions with Arab governments. We are actively working to get our 
message out to Arab audiences through stations such as Radio Farda and 
Al Hurra TV.

    <bullet>  President Bush's Proliferation Security Initiative 
enlists cooperating nations in a stronger effort to control the spread 
of the technology behind weapons of mass destruction.

    <bullet>  The Administration has created the Terrorist Threat 
Integration Center to coordinate governmental efforts against 
terrorism. As the Commission noted, it has also initiated important 
reforms in both the FBI and the CIA. Secretary Powell and Secretary 
Rumsfeld have significantly increased the intelligence capabilities of 
the Departments of State and Defense, respectively.

    <bullet>  Spending on intelligence, technology, and equipment has 
increased dramatically. Congress has generously funded the Office of 
Domestic Preparedness so that State and local governments can increase 
their readiness for both natural and man-made disasters.

    This effort has been ably led by President Bush. But it has been 
assisted by leaders from both parties. Under the leadership of both 
Chairman Collins and Ranking Member Lieberman this Committee has 
reported out a number of key bills making our nation safer. These 
include the legislation creating the Department of Homeland Security 
and action earlier this year to increase the efficiency of the 
Department's State and local grant programs.
    But I know we can do much more:

    <bullet>  We can work to implement improved technologies and 
procedures to increase our ability to track and stop terrorists and 
weapons at our borders while speeding the travel of the large majority 
of visitors and cargo.

    <bullet>  We can improve our processes for admitting and keeping 
track of foreign students. This nation's leadership in higher education 
is both critical to our future competitiveness and an important avenue 
of cultural exchange with the future leaders of other countries. The 
vast majority of foreign students return home with a better 
appreciation of and respect for American culture and society.

    <bullet>  We can help foster peace in the Middle East by renewing 
our commitment to Israel's national security and making sure that 
Palestinians understand that internal reforms and a cessation of 
violence will lead to their own homeland.

    <bullet>  Finally, we can overcome bureaucratic inertia and turf 
battles to create a better institutional structure for collecting and 
analyzing intelligence. The new structure should coordinate 
intelligence activity to ensure that it reflects national priorities 
but allow enough freedom, especially in the analysis of data, to ensure 
that senior policy officials receive a variety of viewpoints.

    I look forward to the challenge before us.

    Senator Coleman. Where we are at, and I want to press this, 
and I don't want to leave this hanging because the comment was 
made about not operating with a sense of urgency, and I am 
going to be very blunt, is the comment about Director Tenet and 
the time that it would take to develop the capacity that we 
didn't develop over the 1990's, and in fact we cut back with 
over the 1990's, the human capacity, the ability for folks to 
understand the Islamic frame of mind, who could speak Farsi and 
speak Arabic, is his estimate of 5 to 7 years, are you saying 
that reflects a lack of urgency on his part?
    Mr. Hamilton. I think it reflects the difficulty of the 
job. I think if there is one thing we all agree on, it is we 
need more human intelligence. And I was on the Intelligence 
Committees when we got quite fascinated with the fancy 
technology, and we put a lot of money into it. I don't think 
that was a mistake, but on the other hand, looking back on it, 
you can say we didn't put enough emphasis on human 
intelligence, so far as the congressional oversight was 
concerned.
    But, Senator, one of the things that really impresses me on 
human intelligence is I think our expectations often get too 
far in front of us. It is very difficult work. If you are 
thinking about human intelligence, and you mean you are going 
to put a fellow in the cell of Osama bin Laden, which is very 
few people, it is just exceedingly difficult to do because of 
the suspicious nature of that cell.
    Don't misunderstand me--I am all for human intelligence, 
and I am disappointed like the Governor is, when I heard the 5-
year estimation by George Tenet, but I'm not too surprised by 
it, and no one should expect that this is a silver bullet. 
Human intelligence is very tough to do.
    Senator Coleman. I think it is fair to say that there are 
no silver bullets here. There are, as the report lays out, ``We 
do not believe it possible to defeat all terrorist attacks 
against Americans. Every time and everywhere a President should 
tell the people we can't promise that a catastrophic attack 
like 9/11 won't happen again no matter what we do.''
    I used to be a prosecutor. We used to say in law 
enforcement we try to cut the odds. We put bad people away to 
cut the odds, but we never guarantee the safety of every 
citizen. You cannot do that.
    I just want to, again, this lack of urgency, is there any 
sense that Tom Ridge has a lack of urgency as he approaches his 
job of Homeland Security or of Director Mueller? Is there any 
sense that he has a lack of urgency in approaching his job?
    Mr. Kean. No. I would say they have no lack of urgency. But 
what I think we have to do though is instill that same urgency 
in the American people, the understanding that this is 
something, these people are planning to attack us again and 
trying to attack us sooner, rather than later, that every delay 
we have in changing structures or changing people or whatever 
it is, to make that less likely is a delay the American people 
can't tolerate.
    We, as former members of the Commission, now as private 
citizens, and you obviously as the leaders of our country, have 
got to get that across to people. There are a lot of priorities 
out there, but this one cannot again submerge the way it did 
some years ago.
    Senator Coleman. I asked this question because this is a 
political season, and this should not be a political football, 
and I could just see a headline, ``Chairman Says Lack of 
Urgency.'' So it is not Mueller, and it is not Tenet, and it is 
not Ridge, and I presume it is not Condi Rice and not----
    Mr. Kean. No, and we didn't say that in our report about 
any of those people, and wouldn't. The sense of urgency is 
there, but a sense of urgency must be extended, magnified, made 
an important part.
    One of the things we note in our report, in the last 
presidential campaign, we had all these warnings, all the way 
from World Trade Center One through Black Hawk Down, which bin 
Laden was part of, to all the attacks abroad and at home, the 
ones that were stopped and the ones that succeeded, all that 
laid out, we went through all the rhetoric of the last 
presidential campaign, terrorism was mentioned only once----
    Senator Coleman. Let me talk about where we----
    Mr. Kean [continuing]. And al Qaeda. So, anyway, the only 
point I'm making is the more sense of urgency we can get and 
establish----
    Senator Coleman. Including for the American public to 
understand that the world has changed. We live in a post-
September 11 world, and our reality has changed. We are never 
going to get back on that track.
    Just a practical reflection on the recommendation for a 
National Intelligence Director and the creation of a National 
Counterterrorism Center, which I support in concept, but the 
practical piece I am looking at is this, Chairman Hamilton 
talked about Homeland Security takes a long time to set up. We 
are still in the process of setting that up. How do we deal 
with the risk--I am worried about, as we move forward with 
other structural change, do you fear us creating any gaps? Are 
there some things that we should be looking at in the interim?
    And I will raise the question about Homeland Security. I 
would actually think most Americans would think that the 
Director of Homeland Security is the person now today 
responsible because we know that the threat of terrorism is no 
longer just an international issue; it is also a domestic 
issue. And so we would think, I think the average American 
would think Tom Ridge has that responsibility, but clearly, 
structurally, it is not there.
    Help me understand how we, in moving forward, if we were to 
move forward with a National Intelligence Director, a new 
Counterterrorism Center, what do we do to make sure that we do 
not have any interim gaps, that we do not actually weaken our 
capacity during that period of time?
    Mr. Hamilton. Any time you make a transition or a change, a 
major change like we are suggesting, there are some risks 
involved. You have to weigh it, however, against the risk of 
doing nothing, and we believe that the risk of not moving is 
much greater than the risk of moving, even though there are 
some risks of moving. And so I guess that is the way I would 
approach your question.
    We are recommending major structural change, and as you go 
through that, we all know there is a real difficult period, and 
there are some risks. You cannot deny it----
    Senator Coleman. One of the things----
    Mr. Hamilton [continuing]. Until you get it working like 
you ought to get it.
    Senator Coleman. Governor Kean, did you want to respond to 
that?
    Mr. Kean. Just, Senator, that you are right, obviously 
right about the risk. But we came to a conclusion, all 10 of us 
from what we studied in this, that the present system is 
unacceptable and doesn't work. It is just that simple. It does 
not work, and the American people will be less safe if we 
continue in the present structure than if we start to move to 
the kind of structure we've suggested.
    Senator Coleman. The one thing that you are not 
recommending is a new Domestic Intelligence Agency. You are 
still willing to say we will leave that with the FBI, but 
really I saw two caveats there: One, only if the National 
Counterterrorism Center is created.
    Mr. Kean. That's correct.
    Senator Coleman. So would it be a judgment if, for whatever 
reason, that the sense was that we do not go in that direction, 
would you then be recommending a new Domestic Intelligence 
Agency or some shift away from the FBI, in the absence of that 
structural change?
    Mr. Kean. If we don't make this structural change, my hope 
is the Congress and the people who decide not to do it, will 
make a whole series of recommendations to replace what we have 
recommended.
    What we are basically saying is we have done the best we 
could. We had debates that went on for a year on the 
Commission. We brought in every member of government. We talked 
to a number of so called ``wise men'' around this town who had 
served in positions of government. This is the best we can come 
up with. We're not saying it is the best anybody can come up 
with. If people can come up with something better, God bless 
them, but what we're saying is basically it is the best we can 
do, and if people don't like it, please come up with something 
new. Do not leave what's there now.
    Mr. Hamilton. I have real doubts about an MI5, period, 
whether or not you do what we recommend. I don't think it fits 
in this country. And interestingly enough, the MI5 people who 
we talked with don't think it will fit here either because the 
two countries are so very different.
    You've got an FBI today that is accustomed to carrying out 
very sensitive intelligence collection with respect to the rule 
of law, in compliance with the law. That is a very valuable 
asset, and you don't want to lose it. So put me down on the 
side of being opposed to the MI5, period.
    Senator Coleman. Very brief, one other area--actually, my 
time has concluded, and with that I will thank you, Madam 
Chairman.
    Chairman Collins. Thank you. Senator Durbin.

              OPENING STATEMENT OF SENATOR DURBIN

    Senator Durbin. Thank you very much, Madam Chairman.
    I have been in Boston, and I have lost my voice. I do not 
know why. [Laughter.]
    But thank you for this hearing, and I am glad that you did 
it in a timely fashion. I want to salute the Chairman for 
bringing us together.
    Let me also salute both of you publicly, which I have done 
by press release, but I wanted to do it in person for your 
contribution to our country. You have done an excellent job, 
and it is painful to concede, but I must concede, I think you 
did a better job than a congressional committee could have 
done. Yours was truly a bipartisan effort. In a political 
season, you were as apolitical as you could be and still be 
honest about your conclusions, and I thank you for that.
    I am one of the few in this, maybe the only Member of this 
Committee, who happens to be on this Committee, the 
Intelligence Committee, and the Appropriations Committee. So I 
have sort of seen all of this coming together in a variety of 
different ways. And I would have to say to you that I think you 
were sparing in your criticism of Congress, when it comes to 
our oversight role. I think you could have come down a lot 
harder.
    You said that it was the single most important and most 
difficult thing that needs to be done--to reform congressional 
oversight, but I can tell you candidly that the Senate 
Intelligence Committee, with 30 or so staffers who work 
extremely hard and do a fine job, are not sufficient to the 
task. With all of the intelligence agencies, with all of the 
responsibilities we have, we cannot give adequate oversight 
with that limited number of staff people.
    I do not know if a Joint Committee is the best approach. It 
is an old concept, as Congressman Hamilton said at one of our 
briefings, that goes back 40 or 50 years, but we need to find a 
way to create, as you suggest, a nonpartisan staff up to the 
task, and a Committee that understands its responsibility, and 
we should not overlook it. As we start pontificating about the 
Executive Branch, we ought to be introspective as well, and 
thank you for challenging us.
    I also think that you were somewhat sparing in your 
criticism of our technological capacity. You have conceded that 
we need to move into new technology, imaginative, creative 
technology, biometric screening and things of that nature, and 
I think you are exactly on point when you suggest that.
    But I have to say that it has been my experience, having 
focused on one small aspect of this war on terror, that we are 
woefully behind, and that is the development of technology in 
our government. It is incredible to me how far behind we were 
on September 11, and you must have seen this as you looked at 
the antiquated computer system at the FBI, for example, 
incapable of word search, incapable of E-mail, incapable of 
access to the Internet, incapable of sending photographs over 
their computer system. The photographs of the hijackers were 
sent by overnight express to the regional office of the FBI. 
Computers could not send them.
    Well, Bob Mueller is a fine selection by the President and 
a good man as the head of the FBI in my estimation, and he is 
trying, through trial and error, to improve this system, but 
the system, to give you a notion, is so woefully behind that a 
year ago the Inspector General gave us an update on our effort 
to integrate the collection and sharing of fingerprints between 
the FBI and the Immigration and Naturalization Service, now 
part of the Department of Homeland Security.
    We wanted them to be able to share fingerprints of 
suspicious people, so we suggested in 1999 that is what they 
should do, and the Inspector General told us last year he 
thought that by the year 2008 they would be capable of doing 
that, a mere 9 years after identifying this as a priority.
    So understand my skepticism, when you start talking about 
biometric screening. Existing fingerprints at two Federal 
agencies cannot be shared today for the safety and security of 
America, leading me to my point and one of yours as well.
    I think that we have to look on this, as Franklin Roosevelt 
viewed Pearl Harbor, World War II, and the need for an atomic 
bomb. He said, ``We have got to break through all of the 
bureaucracy then in Washington, bring together the private 
sector, academia, and the public sector and create a Manhattan 
project and build some atomic bombs.'' General Groves did it in 
a thousand days, had the bombs that ended the war through the 
Manhattan Project.
    We are now 1,053 days after September 11, and we have to 
ask ourselves where is the Manhattan Project in technology for 
our government? It is something I have been preaching on here 
in this Committee with little or no success. There is 
bureaucracy fighting me off. ``Please stay out of this. We do 
this ourselves,'' and yet the reality of sharing fingerprints 
and even envisioning biometric screening says to me that we 
need to be as bold in our thinking as Franklin Roosevelt was 
about the atomic bombs when it comes to the technology to fight 
this war on terrorism.

              PREPARED OPENING STATEMENT OF SENATOR DURBIN
    Madam Chairman and Senator Lieberman, I want to thank you both for 
holding this important hearing. As you recognized, national security is 
not something that could wait until September.
    I want to salute the families of those lost on that terrible day in 
2001 for demanding the creation of an independent commission and 
insisting on answers to their questions about how 19 angry men armed 
with the simplest of weapons could strike such a blow against the most 
powerful nation in the world and about how we could make sure that this 
country will never again be so unprepared. By refusing to be silenced, 
you have done a great service to this nation. And, I want to recognize 
the bipartisan partnership that characterized this commission and its 
work. I hope we can build on that spirit as we seek to turn 
recommendations into law.

First Line of Defense
    The 9/11 Commission has produced an extremely valuable report, not 
least because it has compelled us to meet to try to adapt and implement 
its recommendations before we lose any more time. Intelligence is our 
first line of defense, and it is essential that it be a flexible, 
creative force, not some modern Maginot Line, vulnerable to 
circumvention by our enemies.

Failures
    Our intelligence failed us on September 11 and it failed us in 
Iraq. In Iraq, information was misinterpreted or misused, and the 
American people were misled, and the consequences have been enormous.
    The 9/11 Commission Report reads: ``We believe the 9/11 attacks 
revealed four kinds of failures: In imagination, policy, capabilities, 
and management,'' and of these they conclude that the most important 
failure was one of imagination. That is a shortcoming we cannot afford 
to repeat.

Slow to Enact Change
    It is a failure, though, that I fear could be repeated. We see 
numerous warning signs already. The first ominous sign is the length of 
time it has taken to spur action on the urgent questions of information 
sharing and organizational reform in the wake of September 11. Some of 
the suggestions contained within the 9/11 Commission Report were voiced 
in the joint intelligence committees' report in December 2002. 
President Bush's Foreign Intelligence Advisory Board, chaired by former 
national security adviser Brent Scowcroft, reportedly called for a 
director of national intelligence over two years ago. We clearly could 
have already implemented a number of badly needed changes, and today we 
could be reviewing the progress of our reforms rather than hurriedly 
trying to design them.
    I understand that the President is planning to issue a series of 
executive orders addressing some of these concerns; I wish he would 
have done so earlier. Over a year and a half has gone by since the 
joint committees issued our call for reform of the intelligence systems 
with a series of concrete recommendations.

Gravity of the Threat
    The central failure of imagination that the 9/11 Commission 
pinpoints was the inability of leadership (in both Administrations and 
in both Houses of Congress) to recognize the gravity of the threat we 
faced. Handicapped by a Cold War structure and perhaps a Cold War 
mindset, our intelligence system had not changed with the times, while 
the rest of the world had. The end of the Cold War had unleashed new 
nationalisms and ideologies and created a new international dynamic. 
With the Soviets out of Afghanistan and now completely out of the 
picture, veterans of that conflict including Osama Bin Laden set their 
sights on a new enemy--us.
    Our intelligence analysts and policy makers recognized this fact 
but not the magnitude of the threat it presented. The paradigm had 
changed but we had not sufficiently adapted.
    Now the Commission points out that about 90 percent of the 
country's $5 billion annual investment in transportation security has 
gone to aviation, to fight the last war. While aviation security is 
crucial, we have other vulnerabilities, and we must be as creative as 
our enemies.
    The Commission concludes that ``The current efforts [in 
transportation safety] do not yet reflect a forward-looking strategic 
plan systematically analyzing assets, risks, costs, and benefits.''
    That same assessment could be applied to our entire approach to 
intelligence: We do not yet have the forward looking strategy that we 
so badly need.

Summer 2004: Blinking Red Again
    As Members of the Governmental Affairs Committee, our job has to be 
to help create the architecture to promote that strategic vision. In 
the summer of 2001 there were many fragmentary but important warning 
signs: In the words of CIA Director George Tenet, ``the system was 
blinking red.''
    There have been a number of public reports that the warning lights 
are again blinking furiously this summer. I'm not convinced we are 
significantly better equipped to confront these security challenges, 
and I am convinced that Administration foreign policies have made the 
international environment an even more dangerous place, with the war in 
Iraq, with the resulting loss of momentum in the fight against al 
Qaeda, without progress toward Middle East peace, and with the 
alienation of allies and the weakening of international institutions.
Iraq
    The Commission report identifies Islamic jihadists as the enemy, 
but chose not to address how the war in Iraq has added to their ranks. 
One commissioner called Iraq ``a third rail'' whose touch would have 
proved deadly to the commission's desired consensus. That metaphor is 
worth thinking about, though, since it is the electrified rail that 
provides power to the system, and the war in Iraq has both diverted 
energy away from the global war on terrorism while at the same time 
inflaming new enemies.
    When we went to war with Iraq, without either a coalition or an 
imminent threat, we lost ground in the battle of ideas, in the struggle 
to convince the Islamic world that we are not their sworn enemy. But 
that die has been cast. We must now look forward to how we can forge 
policies to help us re-take the high ground through diplomacy, economic 
development, and multilateral engagement.

Intelligence Reform
    In addition to rethinking our diplomatic approach, in the face of 
rising threats, we must implement and expand on the commission's 
domestic recommendations. We must better coordinate and integrate the 
flow of information. We must address the perils of ``groupthink.'' We 
should encourage creativity rather than rely on seniority; current 
institutional barriers that hamper mid-career hiring within the 
intelligence community may shut new thinkers with fresh perspectives. 
We need to promote real reform and communication rather than merely 
rearrange the organizational flow chart of the intelligence community. 
In seeking to create a single intelligence tsar, we must insulate that 
position from the political pressures of the White House--under any 
Administration. And, finally, we must maintain our oversight 
capabilities and fulfill our oversight responsibilities.

Information Access Failures
    As the pivotal questions of ``what went wrong, why, and what must 
we do about it'' continue to be dissected and debated, we have learned 
much about communication breakdowns and information exchange failures 
that preceded September 11, 2001.
    We have heard about decisions to insulate and not share crucial 
information. We have identified systems deficiencies. We have 
encountered stovepiped, turf-conscious agencies. We have acknowledged 
some of the culprits that contributed to making our U.S. homeland 
vulnerable, unprotected, and unwittingly caught off-guard. And we're 
still asking the question: Are we really any more secure today?
    What action are we taking as a result of these lessons and 
revelations? We've undertaken a massive and unprecedented restructuring 
of a huge portion of our government framework in the establishment of 
the Department of Homeland Security.
    Of all the essential elements we are evaluating, none can possibly 
be more vital than the mission of ensuring interoperability of 
information systems for agencies responsible for homeland security and 
intelligence.
    If you look at an on-line slide show called ``Who We Are'' 
accessible on the Intelligence Community's website 
(www.intelligence.gov), it briefly describes each of the various 
component agencies and their respective areas of responsibility. It is 
noteworthy that many are characterized by the type of information and 
intelligence they collect and analyze. For instance, it indicates that 
the Army, Navy, Air Force, and Marine Corps Intelligence Organizations 
``each collect and process intelligence relevant to their particular 
Service needs,'' the Department of State ``deals with information 
affecting US foreign policy,'' the Department of Treasury ``collects 
and processes information that may affect US fiscal and monetary 
policy,'' the FBI deals with ``counterespionage and data bout 
international criminal cases,'' the National Reconnaissance Office 
``coordinates collection and analysis of information from airplane and 
satellite reconnaissance by the military service and the CIA.''
    These intelligence collectors and analysts perform critical 
missions. When it comes to facilitating interaction of all this 
intelligence information, we must stop thinking inside the boxes, and 
not be stifled by lines on organizational charts. We must not be locked 
in by ``who is supposed to do what'' under current mandates. We must 
adjust our response to the very different world in which we now live.

Leadership Needed
    I believe we need to give a key official the primary job of 
overseeing a network of networks for facilitating intelligence 
information access and exchange. I have used the analogy of President 
Roosevelt's decision to put General Leslie Groves in charge of the 
``Manhattan Project.'' We need an information systems management genius 
with all the power, clout, vision, drive, and administrative freedom to 
manage this specific task and responsibility.
    If General Groves was able to build the atomic bomb in 1,000 days, 
shouldn't we be able to tackle the challenge of Federal systems 
interoperability and meet with equal fervor the urgent homeland 
security and intelligence missions? Today marks the 1,053rd day since 
September 11, 2001.
    One of the elements included in the Homeland Security bill reported 
by this Committee in July 2002 was a proposal I offered relating to the 
whole question of interoperable information systems. It seemed to be a 
logical component of the comprehensive proposal to restructure 28 
agencies into a new, unified Homeland Security Department.
    I first broached this idea at a hearing this Committee conducted 
under Senator Lieberman's leadership on June 26, 2002. That hearing 
focused on the relationship between a Department of Homeland Security 
and the intelligence community. In response to my question about the 
need for a Manhattan Project, one of our witnesses, Lt. General Patrick 
Hughes, the former Director of the Defense Intelligence Agency, 
suggested that while ``(t)he technology to do the things that you are 
talking about wanting to do is present and available'' the problem is 
``parochial interests'' which get in the way of the ``synergistic 
larger effect of mission support across the government.'' (S. Hrg. 107-
562, p. 43, June 26, 2002)
    Each of the agencies consolidated in DHS brought along its own 
separate information technology budget, strategic plan, and program--
the Coast Guard, Customs, FEMA, INS, Secret Service, Transportation 
Security Administration, and others. Each one has a unique system that 
does not necessarily have the capacity to communicate or coordinate 
their respective activities.
    And the problem is not limited to forging links and establishing a 
functional network for data access within the Department itself. It is 
equally important to establish appropriate links between the Homeland 
Security Department and other agencies, such as the CIA, the National 
Security Agency, the Department of Defense, the FBI, the State 
Department, and State and local officials, which are not embraced under 
the Homeland Security Department's organizational umbrella. What kind 
of network is needed to enable the robust information sharing your 
findings and recommendations demand?
    The amendment which my fellow Governmental Affairs Committee 
Members unanimously accepted when we marked up legislation to create 
the Department two years ago was considered by Tom Ridge as a ``force 
multiplier.'' It would have required designating a key official whose 
primary responsibility is to design and deploy an enterprise 
architecture to achieve information systems interoperability between 
and among Federal agencies responsible for homeland defense whether 
inside, or adjunct to, the new Department.
    The language we agreed to in Committee never made it into the final 
product creating the Department of Homeland Security in November 2002. 
We faced a take-it-or-leave-it floor vote on a fast-track proposal put 
forward by the President after he spent months contending that a new 
Department was entirely unnecessary.
    That setback does not mean that this issue has disappeared. The 
proposal was introduced at the beginning of this Congress as part of a 
comprehensive homeland security bill, S. 6, on January 7, 2003.
    If DHS is making progress on integration and interoperability of 
information systems, I'll be the first in line to praise it. Department 
officials should be anxious and proud to share what's been accomplished 
to date. But we really do not know. In the FY 2004 Homeland Security 
Appropriations bill enacted last October 1, language was added at my 
request requiring the Department to submit a report to Congress about 
their progress.
    The report language mandates a report on the status of the 
Department's efforts to complete an inventory of the Department's 
entire information technology structure; devise and deploy a 
comprehensive enterprise architecture that promotes interoperability of 
homeland security information systems, including communications 
systems, for agencies within and outside the Department; consolidate 
multiple overlapping and inconsistent terrorist watch lists; and align 
common information technology investments within the Department and 
between the Department and other federal, state, and local agencies 
responsible for homeland security to minimize inconsistent and 
duplicative acquisitions and expenditures.
    That report was due on December 15, 2003. I regret to say, we are 
still waiting for it.
    Federal agencies have deployed information systems in stovepipes, 
with little thought given to interoperability with the systems of other 
agencies. Interoperable information systems would allow for efficient 
sharing of data and better communications between agencies responsible 
for intelligence gathering, border security, crisis response, and other 
homeland security missions. The need for more effective cooperation 
between agencies such as the FBI, CIA, Department of State, and INS has 
become obvious, yet poorly developed information systems are getting in 
the way when technology should be enhancing agencies' effectiveness.
    When it comes to information sharing, we must not delude ourselves 
into thinking we are where we ought to be. We are not.
    It's high time we focus more on the need to share, rather than on 
the need to know. Knowing what we know about gaps in information access 
and dissemination, it would be unconscionable--as this Committee takes 
on the responsibility to evaluate the intelligence community 
structure--for us to exclude this element.
    We need to designate a high level intelligence information sharing 
czar with the power to harness and procure the best in technology and 
grant that leader all the authority and resources needed to establish, 
implement, and manage what the Commission Report calls a ``trusted 
information network.''
    I look forward to hearing from our distinguished panel, two 
exemplary public servants, whose leadership I commend. I thank them for 
their service and for arranging to be here today. Thank you, Madam 
Chairman.

    Senator Durbin. I would appreciate your thoughts on that.
    Mr. Kean. Thank you, Senator. I like the way you talk, from 
my point of view.
    We are fighting people now who are different than anybody 
we have ever fought before in our long history. They are, if 
you like the expression, entrepreneurial. They are coming at us 
in ways that we would never have envisioned before. When we 
examined the hijackers who succeeded, 19 out of 19, they tested 
our defenses, and they overcame every one of them, one by one.
    Now, when we met privately with President Clinton, one of 
the things that he said to us was, ``You know, it takes defense 
always a couple of years to catch up with offense.'' Well, we 
are into a couple of years now, and we can't really afford it 
any longer.
    And I think it is a combination. It certainly is the kind 
of technology you talk about, government can't be behind in 
that. It certainly is the human intelligence that we were 
talking about before. We cannot any more afford not to have 
that. It is the language skills and so many things.
    And the trouble is, because it is a new war, and a new 
enemy, and a new way of thinking, we have got to think anew, 
and act anew in ways that we have never conceived before. And 
if we don't do that, that is what we talked about a little bit 
in our report about imagination, about the fact that somebody 
maybe should be sitting there reading Tom Clancy, in some ways, 
to envision the enemy, and understand them and come at them. 
But you are absolutely right, Senator----
    Senator Durbin. Yes, zero in--and perhaps Congressman 
Hamilton could help and respond to this--zero in on technology 
for a moment and acknowledge the obvious. And that is that even 
if we have a President with the will to change, even if we 
decide that the person in charge is Cabinet level, not Cabinet 
level, but coordinating the agencies, there seems to be, at the 
lower levels, bureaucratic resistance, turf protection, the 
cliche ``the old stovepipes,'' and also the inability for us to 
think in fresh and modern terms about the potential of 
technology.
    Every agency is inventing its own form of database and 
technology. The idea of merging and marrying information is 
critical to our national defense. There is political resistance 
to it. There is technological resistance to it. I think we need 
something like a Manhattan Project that says, ``Step aside. We 
do not have time for this battle. We have to be prepared. We 
need intelligence as our first line of defense in terrorism, 
and the strongest weapons in those arsenals for the 
intelligence agencies will be information technology. Now, let 
us build, let us have our new Manhattan Project and build these 
arsenals in intelligence.''
    Congressman Hamilton.
    Mr. Hamilton. Well, I think you would have been a very good 
member of the Commission, Senator----
    Senator Durbin. I had something else going on. [Laughter.]
    Mr. Hamilton. If we'd have had that kind of advocacy at the 
time.
    Look, in the National Intelligence Director, we give him a 
lot of authority, and one of the authorities we give him is to 
set information and information technology policies across the 
board. That is what you don't have today. Your illustration of 
the fingerprinting is a classic illustration of stovepipe, 
absolutely classic illustration of it. We should have featured 
it in the report, and we didn't.
    How do you deal with that? Well, you have to make these 
agencies share their information across agency lines, and you 
can only do that if you get an integrated technology system. 
And you have to have someone in the government, other than the 
President--everybody says it is the President's responsibility, 
but Presidents can't do everything.
    You have to have somebody in the government who has the 
authority to set your information technology policy and speaks 
with the authority of the President, and that's why you have a 
National Intelligence Director in our recommendation and that's 
why you put him in the Office of the President. If you've got 
him stuck out here somewhere in center field, he's not going to 
have the authority. He has to have the authority that comes 
with the presidency of the United States.
    And I just think you have made, more eloquently than we 
have been able to make, the case for the National Intelligence 
Director to have the authority.
    Senator Durbin. Thank you. Thank you, Madam Chairman.
    Chairman Collins. Thank you. Senator Specter.

              OPENING STATEMENT OF SENATOR SPECTER

    Senator Specter. Thank you very much, Madam Chairman.
    I am glad to see these hearings proceeding today. And in 
the face of the 9/11 Commission report and the Senate 
Intelligence Committee report a few weeks ago, documenting the 
failures of intelligence on Iraq, that we are finally appearing 
to move to place under one unified commander something which I 
think has been evident for a long time.
    I believe that we can move ahead with legislation knowing 
what we are doing without a long period of time because there 
is a lot of experience in the Congress as to what the problems 
are. I think there is no doubt that had all of the information 
been in one central pool, that September 11 could have been 
prevented.
    The Phoenix FBI report did not reach the proper source. The 
two terrorists who came in, known to the CIA, from Kuala Lumpur 
passed by Immigration. The Zacarias Moussaoui matter, in and of 
itself, would have provided a total unraveling. And it was in 
this room, in early June 2002, that FBI Director Mueller 
finally faced up to some very basics when Special Agent Colleen 
Rowley had written that 13-page, single-spaced report. So that 
finally we are coming to a point where we are talking about a 
single commander.
    We face an incredible culture of concealment in the 
intelligence agencies. And I would like to put in the record 
just two memoranda, one when I chaired the Intelligence 
Committee, took the testimony of a longstanding CIA agent who 
had been there for 40 years who passed on to both the President 
and President elect, in January 1993, information which came 
from the Soviet Union which was tainted, that it had been 
controlled by the Soviet Union.
    And this CIA operative did not tell the President or 
President elect that it was tainted because he said, if he had, 
they would not have used it. And he said, in his own 
extraordinarily arrogant way--arrogance is a quality around 
here in superabundance. It might even be on this Committee, 
even closer to home--and this CIA operative did not tell 
anybody in the Agency.
    And, Madam Chairman, I would like this made a part of the 
record.\1\
---------------------------------------------------------------------------
    \1\ The memorandum referred to submitted by Senator Specter appears 
in the Appendix on page 72.
---------------------------------------------------------------------------
    Chairman Collins. Without objection.
    Senator Specter. And one other memorandum which has been 
made part of the public record on the concealment in the FBI, a 
memorandum from Director Freeh which recites a situation where 
a member of Attorney General Reno's staff had commented to the 
FBI that, with respect to the investigation of campaign finance 
reform, there was a lot of ``pressure'' on him and the Public 
Integrity Section regarding the case because ``the Attorney 
General's job might hang in the balance.'' And this should have 
been disclosed to the Oversight Committee of Judiciary and 
finally was when we issued a subpoena in the spring of 2000. So 
that we are dealing with an extraordinarily difficult 
matter.\1\
---------------------------------------------------------------------------
    \1\ The information referred to above appears in the Appendix on 
page 73.
---------------------------------------------------------------------------
    I think that Congressman Hamilton is exactly right on the 
separation of policy from intelligence. And I wonder if any 
consideration had been given by the Commission, Congressman 
Hamilton, to the creation of a 10-year term so that the 
Director would overlap Presidents and would have that 
insulation on the analogy of the Director of the FBI, removable 
for cause, but otherwise secure notwithstanding executive 
pressure or executive influence?
    Mr. Hamilton. I think we gave very little consideration to 
it. I recall one discussion where it came up. It was not 
pursued. It was not rejected, but we did not make it part of 
the recommendation.
    I often think that the analogies of the kind of--to the 
position we are creating here would be the U.S. Trade 
Representative, the OMB Director. And if you are thinking about 
independence, this is not in the Commission's report, but one 
of the remarkable positions in the Federal Government is the 
Chairman of the FBI, who has an unusual independence there, how 
that was created, he has a term that is not coterminous with 
the President. But we did not get into that in the Commission.
    Senator Specter. Well, I think that is something this 
Committee will take up and certainly something that is very 
much on my mind.
    With respect to the structure on what might be called 
``dual-hatting,'' as I examine the Table of Organization, you 
have the deputy is in the FBI, the deputy is in the Department 
of Defense, and it seems to me very difficult to have the 
Director of National Intelligence in charge. And you say in 
your joint statement that he will control the national purse 
strings, he will have hire and fire authority over agency heads 
in the intelligence community.
    My own preference, and I am not in concrete on it, would be 
to take the bull by the horns and take the Counterintelligence 
Unit out of the FBI and put the Counterintelligence Unit under 
the National Director. You do not have the same consideration 
with the CIA because the CIA is not under anybody else, but 
have the National Director in charge of the CIA. On the Defense 
Intelligence Agency it is a little tougher because Defense has 
a role which goes beyond counterintelligence, and you have to 
have tactical control.
    And, Congressman Hamilton, you said that when you deal with 
the Department of Defense that it would be the same as today, 
but I do not think that is really true if the new National 
Director has budget authority and has the authority to hire and 
fire.
    Let me ask you, Governor Kean, why not take the bull by the 
horns? You might encounter some additional resistance on the 
turf struggles, and I expect that to be fierce not only from 
the CIA, the acting Director has already fired a salvo right 
midship on you, and the FBI Director, in a very anticipatory 
defense, has come out agreeing with your recommendations. So 
nothing more needs to be done to the FBI. And wait until you 
get involved with the Department of Defense. And then you have 
the committees. And the Armed Services Committee has a vested 
interest in the authority of the Department of Defense, and the 
Intelligence Committee, etc.
    But why not go to the core, right to the roots and take 
these agencies and really put them under this new National 
Director so they serve one master and one person in control?
    Mr. Kean. I believe we didn't want to--we were very careful 
to recognize that we were in the midst of a war, and we 
recognized that change had to occur in order to pursue that war 
correctly for the century. But I believe we were not, the kind 
of change you suggested we just didn't discuss really.
    Mr. Hamilton. Well, he's recommending a much more radical 
approach----
    Mr. Kean. Yes, we didn't go that far.
    Mr. Hamilton [continuing]. Than we tackled.
    Senator Specter. Powerful, not radical. [Laughter.]
    Mr. Hamilton. We think the National Intelligence Director 
oversees three principal areas--one is defense, one is homeland 
security and one is foreign intelligence--and we do think it is 
necessary to get coordination among those three under one head, 
the National Intelligence Director. And that is the way we set 
it up as we did.
    We understand that there is going to be some opposition to 
this proposal. My sense, in listening to you, if I understand 
it properly--and I may not--that the opposition would be far 
greater.
    Senator Specter. Oh, I think the opposition is going to be 
far greater. When Senator Lieberman and I put in the bill for 
Homeland Security 30 days after September 11, there was 
enormous resistance. It was only when FBI Agent Colleen Rowley 
blew the lid off of the FBI that we made progress. And then we 
fought very hard to have the Secretary of Homeland Defense, in 
creating a new agency, this was a perfect time to give him the 
authority to direct. And it is all over the congressional 
record. We argued this vociferously in the fall of 2002. But I 
think the pressure is going to be tremendous.
    My time is up. A concluding comment. I think now, with the 
threat, we have been told by the Director of the FBI and the 
Secretary of Homeland Security that we are going to be attacked 
sometime between now and November 2, that is a pretty awesome 
matter. I think we do not focus on it enough. We sort of block 
it, put it aside.
    Mr. Hamilton. We draw a sharp distinction between tactical 
and strategic intelligence, and we understand that tactical 
intelligence must stay with the military, and that is why we 
don't make any changes really with regard to the service 
intelligence.
    We do put the DIA in this organizational chart, but the 
distinction we draw is between strategic and tactical.
    Senator Specter. I think tactical is right. I will conclude 
here, Madam Chairman. I think tactical is right, and the other 
could go under the new National Director. But to conclude the 
thought that I was on, I believe there is going to be a lot of 
pressure, and it is really the existence of this threat that we 
are going to be attacked which makes it imperative building up 
public pressure.
    And I commend you gentlemen and the Commission for this 
report which is focusing a lot of attention, and those of us 
who have been pushing it may have the assistance now to get it 
done.
    Thank you.
    Mr. Kean. Thank you, Senator.
    Chairman Collins. Before calling on Senator Dayton, I want 
to note that the distinguished Chairman of the Armed Services 
Committee, Senator Warner, has joined us, in addition to 
Senator Bill Nelson, and we thank them both for their interest 
in these proceedings today.
    Senator Dayton.

              OPENING STATEMENT OF SENATOR DAYTON

    Senator Dayton. Thank you, Madam Chairman. I also want to 
commend you for holding this hearing in swift response to the 
9/11 Commission's report.
    Mr. Chairman and Mr. Co-Chairman, I want to say again to 
you that we are all indebted to you and to the other members of 
your Commission and your staff for this critically important 
work that you have provided the Nation.
    It is a profoundly disturbing report because it chronicles, 
in excruciating detail, the terrible attack against our 
homeland, the despicable murder of so many American citizens, 
and the horrible destruction to countless other lives and 
liberties throughout this Nation and because of the utter 
failure to defend them by their Federal Government, by their 
leaders and the institutions that were entrusted to do so, and 
because of serious discrepancies between the facts that you 
have set forth and what was told to the American people, the 
Members of Congress and to your own Commission by some of those 
authorities.
    There is way too much to cover here, but I will begin. 
According to your report, the first of the four airliner 
hijackings occurred on September 11 at 8:14 a.m, Eastern time. 
At 10:03 a.m., almost 2 hours later--an hour and 49 minutes, to 
exact--the fourth and last plane crashed before reaching its 
intended target, the U.S. Capitol, because of the incredible 
heroism of its passengers, including Minnesota native, Thomas 
Burnett, Jr.
    During those entire 109 minutes, to my reading of your 
report, this country and its citizens were completely 
undefended. Yes, it was a surprise attack. It was 
unprecedented. Yes, it exposed serious flaws in, as you have 
noted, our imaginations, our policies, capabilities, and 
management designs.
    But what I find much more shocking and alarming were the 
repeated and catastrophic failures of the leaders in charge and 
the other people responsible to do their jobs, to follow 
established procedures, to follow direct orders from civilian 
and military commanders, and then they failed to tell us the 
truth later. It does not matter whether they were Republicans, 
Democrats or neither. It matters what they did or did not do.
    According to your findings, FAA authorities failed to 
inform the military command, NORAD, the North American 
Aerospace Defense Command, about three of the four hijackings 
until after the planes had crashed into their targets at the 
second World Trade Center, the Pentagon and the ground in 
Pennsylvania, which was not their target.
    The direct FAA notification of the military occurred 
regarding the first plane 23 minutes after it was hijacked and 
only 9 minutes before it struck the first World Trade Tower. 
NORAD then scrambled one of only two sets of fighter planes on 
alert in the entire Eastern third of the country--one in 
Massachusetts, one in Virginia--but it didn't know where to 
send them because the hijackers had turned off the plane's 
transponder so NORAD could not locate it on their radar. And 
they were still looking for it when it exploded into its target 
at 8:46 a.m.
    The second hijacking began, according to your report, one 
minute later. NORAD was not notified until the same minute that 
the plane struck the second World Trade Tower. It was 5 more 
minutes before NORAD's mission commander learned about that 
explosion, which was 5 minutes after thousands of Americans saw 
it on live television.
    By this time, the third plane's transponder was off. 
Communication had been severed. Yet it was 15 minutes before 
the flight controller decided to notify the regional FAA 
center, which in turn did not inform FAA Headquarters for 
another 15 minutes. So, at that point, 9:25 a.m., FAA's 
National Command Center knew that there were two hijacked 
planes that had crashed into the two World Trade Centers and a 
third plane had stopped communicating and disappeared from its 
primary radar. Yet no one at the FAA Headquarters asked for 
military assistance with that plane either.
    NORAD was unaware the plane had even been hijacked until 
after it crashed into the Pentagon at 9:34. This is just 
unbelievable negligence. It does not matter if we spend $550 
billion annually on our national defense, if we reorganize our 
intelligence or if we restructure congressional oversight if 
people do not pick up a phone to call one another, if we are 
not told that somebody needs a new radar system or does not 
install it when it is provided.
    And this was not an occasional human error failure. This 
was nothing but human error and failure to follow establishd 
procedures and to use common sense. And, unfortunately, the 
chronicle is not over. NORAD mission commander ordered his only 
three other planes on alert in Virginia to scramble and fly 
north to Baltimore. Minutes later, when he was told that a 
plane was approaching Washington, he learned that the planes 
were flying east over the Atlantic Ocean, away from Baltimore 
and Boston, so that when the third plane struck the Pentagon, 
NORAD's fighters were 150 miles away, farther than they were 
before they took off.
    By then, FAA's Command Center had learned of the fourth 
hijacking and called FAA Headquarters, specifically asking that 
they contact the military at 9:36 a.m. And at 9:46 a.m., the 
FAA Command Center updated FAA Headquarters that United Flight 
93 was ``twenty-nine minutes out of Washington, D.C.''
    Three minutes later, your document records this following 
conversation of the FAA Command Center to the Headquarters:

        Command Center: L``Uh, do we want to, uh, think about 
        scrambling aircraft?''
        FAA Headquarters: ``Oh, God, I don't know.''
        Command Center: L``That's a decision somebody's going 
        to have to make probably in the next 10 minutes.''
        FAA Headquarters: L``Uh, yeah, you know, everybody just 
        left the room.''

    At 10:03, United Flight 93 crashed into Pennsylvania farm 
soil, and nobody from the FAA Headquarters had contacted the 
military. NORAD did not know that this fourth plane was 
hijacked until after it crashed 35 minutes later. The fighter 
planes had reached Washington 7 minutes after that crashed, and 
they were told by the mission commander, ``Negative clearance 
to shoot the aircraft over the Nation's capital.''
    Yet 1 week after September 11, in response to initial 
reports that the military failed to defend our domestic 
airspace during the hijacks, NORAD issued an official 
chronology which stated that the FAA notified NORAD of the 
second hijacking at 8:43--wrong. FAA notified NORAD of the 
third hijacking at 9:24--according to your report-- wrong. FAA 
notified NORAD of the fourth hijacking at an unspecified time 
and that prior to the crash in Pennsylvania Langley F-16 combat 
air control planes were in place, remaining in place to protect 
Washington, DC. All untrue.
    In public testimony before your 9/11 Commission, in May 
2003, NORAD officials stated, I assume under oath, that at 
9:16, they had received the hijack notification of United 
Flight 93 from the FAA. That hijacking did not occur until 
9:28. There was a routine cockpit transmission recovered at 
9:27.
    And in that testimony before you, NORAD officials stated 
also that at 9:24 they received notice of the hijacking of the 
third plane, American Flight 77. Also, untrue, according to 
your report, which states that NORAD was never notified that 
flight was hijacked.
    NORAD officials testified that they scrambled the Langley, 
Virginia, fighters to respond to those two hijackings. Yet tape 
recordings of both NORAD and FAA both reportedly documented 
that the order to scramble was in response to an inaccurate FAA 
report that American Flight 11 had not hit the first World 
Trade Tower and was headed to Washington. That erroneous alert 
was transmitted by the FAA at 9:24 a.m., 38 minutes after that 
airplane had exploded into the World Trade Tower.
    Yet NORAD's public chronology on 9/18/01, and their 
Commission testimony 20 minutes later, covered up those truths. 
They lied to the American people. They lied to Congress, and 
they lied to your 9/11 Commission to create a false impression 
of competence, communication, coordination, and protection of 
the American people.
    And we can set up all of the oversight possible, at great 
additional cost to the American taxpayers, and it will not be 
worth an Enron pension if the people responsible lie to us, if 
they take their records and doctor them into falsehoods and if 
they get away with it. Because for almost 3 years now NORAD 
officials and FAA officials have been able to hide their 
critical failures that left this country defenseless during two 
of the worst hours in our history, and I believe that President 
Bush must call those responsible for those representations to 
account. If the Commission's accounts are correct, he should 
fire whoever at FAA, at NORAD or anywhere else betrayed their 
public trust by not telling us the truth. And then he should 
clear up a few discrepancies of his own.
    Four months after September 11, on January 27, 2002, the 
Washington Post's Dan Balz and Bob Woodward authored an, 
``Insider's Retrospective on Top Administration Officials' 
Actions on 9/11 and Thereafter.''
    They reported that very shortly after the Pentagon was 
struck at 9:34, ``Pentagon officials ordered up the Airborne 
Command Post used only in national emergencies. They sent up 
Combat Air Patrol in the Washington area and a fighter escort 
for Air Force One.'' Secretary Rumsfeld was portrayed as, 
``taking up his post in the National Military Command Center,'' 
and all of that reportedly occurred before 9:55 a.m. Right 
thereafter, ``Bush then talked to Rumsfeld to clarify the 
procedures military pilots should follow before firing on 
attack planes. With Bush's approval, Rumsfeld passed the order 
down the chain of command.''
    This was supposedly taking place, according to that 
article, before the fourth plane crashed in Pennsylvania at 
10:03. It looks very impressive. The President is acting 
swiftly and decisively, giving orders to the Secretary of 
Defense and on down the chain of command, Combat Air Patrol 
planes are patrolling Washington directed by an Airborne 
Command Post all before 10:03 a.m.
    However, according to your Commission, President Bush spoke 
to Secretary Rumsfeld for the first time that morning shortly 
after 10 a.m. Based on White House notes and Ari Fleischer 
notes of the conversation, the Commission's report states that 
it was a brief call, in which the subject of shoot-down 
authority was not discussed.
    The Commission then states that the Secretary of Defense 
did not join the National Military Command Center's conference 
call until just before 10:30 a.m. The Secretary himself told 
the Commission he was just gaining situational awareness when 
he spoke with the Vice President at 10:39 a.m. That transcript 
is on page 23--on page 43. My time is out, but it reflects the 
Vice President's honest mistaken belief that he had given an 
order, after talking with the President, to shoot down any 
plane that would not divert. Yet, incredibly, the NORAD 
commander----
    Chairman Collins. The Senator's time has expired.
    Senator Dayton. I am just going to finish this, if I may. 
Yet, incredibly, the NORAD commander did not pass that order on 
to the fighter planes because he was ``unsure how the pilots 
would or should proceed with this guidance.''
    As you say, Mr. Co-Chairman, the situation is urgent when 
we do not get protected in those circumstances, and it is even 
worse when it is covered up. Thank you.
    Chairman Collins. Senator Fitzgerald.

            OPENING STATEMENT OF SENATOR FITZGERALD

    Senator Fitzgerald. Thank you, Madam Chairman. And, Madam 
Chairman and Senator Lieberman, thank you both for holding this 
hearing so promptly. Governor Kean, Congressman Hamilton, thank 
you for your service to our country. I am very much aware of 
how much time, effort, and wisdom you have brought to bear, and 
all members of the Commission have brought to bear.
    I talk with Governor Thompson from time to time, and I am 
well aware that you were doing this without compensation. And 
for somebody like Governor Thompson, who has a very high 
billable hour rate, it can be a big sacrifice. So I want to 
thank all the members of the Commission. I think your 
recommendations are very good. I think one of my recollections 
immediately after September 11 is some fingerpointing going on 
between the CIA and the FBI; the CIA pointing out that they did 
not have responsibility for domestic counterterrorism 
intelligence operations, and then the FBI pointing out that 
they did not have responsibility for the terrorists abroad.
    We long ago gave the FBI the responsibility for domestic 
counterterrorism intelligence efforts because, when our 
intelligence officers are operating domestically within the 
United States, dealing with U.S. persons and U.S. property, the 
Constitution applies, and we have an entirely different set of 
guidelines that come into play, guidelines that the CIA does 
not necessarily abide by when they are operating abroad. But 
this separation between domestic intelligence and foreign 
intelligence has created these ``stovepipes'' and this lack of 
sharing.
    And I guess, back in the 1970's, many have pointed to the 
Church Commission, which came down hard on apparent abuses of 
domestic intelligence operatives back in the 1970's, and the 
1960's and beforehand, and they really made sure that the CIA 
had nothing to do with spying on citizens or persons within our 
borders.
    But in attempting to funnel these two separate stovepipes--
domestic intelligence and foreign intelligence--into one 
overall head, I am wondering if we have hit upon, with your 
Commission recommendations, the optimal recommendation. In 
effect, would not our National Intelligence Director, who would 
have responsibility for counterterrorism operations, have the 
same powers of a CIA Director if the CIA had responsibilities 
for counterterrorism intelligence within the United States?
    Governor Kean, if you would like to address that.
    Mr. Kean. Well, right now the, at least as Chairman 
Hamilton has said, that the CIA Director has basically an 
impossible job. He has three different things, and in our 
experience, no CIA Director that we have looked at has been 
able to do all three well, though they have tried.
    We believe that it's the combination of the Center and the 
National Intelligence Director, together, that make the sense. 
What we're trying to do is force the sharing of information, 
then make one person responsible. That is somebody who is 
responsible to not only the President, but to the Congress and 
to the American people.
    He would not have--the agencies would do the same thing 
they do now. I mean, nobody would--the CIA would not be dealing 
with domestic intelligence; the FBI would not be dealing with 
foreign intelligence. They would simply be sharing information.
    As I understand it, what we have proposed is the overall 
Director would be able to task, and once this information was 
shared, would be able to direct what more information was 
needed. But the two, the agencies would not be mixed, if I 
understand your question, in their responsibility. He could not 
task the FBI to go do something abroad or the CIA to do 
something in this country.
    It would be the sharing of information and then the 
direction of how that sharing ought to be used to get future 
information or to take that information to the President or 
wherever else it needed to go for action.
    Senator Fitzgerald. Are the Commission members convinced, 
though, that domestic intelligence must be separated and must 
be in a different agency than the foreign intelligence 
gathering in the counterterrorism area?
    Why could we not have that in one agency? Would that not 
solve the stovepipe problem and the lack of sharing of 
information?
    Mr. Kean. I don't think we would have--the sharing of--we 
understand the sharing of domestic and foreign intelligence. We 
think if you combine the two, given the methods that we use 
abroad, ungoverned often by the laws of the United States 
because they are operating in other places, the way the FBI 
operates because they are dealing with current intelligence, 
dealing with American citizens very often, is fundamentally 
different.
    Senator Fitzgerald. And do you see Justice Department 
supervision of domestic intelligence as a necessity because of 
the different guidelines with the U.S. Constitution coming into 
play?
    Mr. Hamilton. I would say, yes, but I want to be clear that 
what we recommend, I think, is close to what you're driving at 
because we have in place the National Intelligence Director, 
and he oversees three areas: Homeland intelligence, foreign 
intelligence, and defense intelligence. So there is one person 
in charge of domestic defense, foreign intelligence. Now, he 
has three deputies to head up each of those areas, but there is 
one person in charge, and there is, to that extent, a pooling 
of intelligence information, a sharing of it.
    And I think it meets what your concern is because one of 
our principal feelings is that, in dealing with 
counterterrorism, you must get away from this division of 
foreign intelligence is over here, and domestic intelligence is 
over here and never the twain shall meet. That's a prescription 
for disaster, we think.
    Now, we also are concerned, of course, with the civil 
liberties question very much here. And the authorities of the 
Justice Department and the FBI remain exactly the same. They 
have the same limits and protections on civil liberties that 
you have today. The difference is that you have the 
communication, the coordination and the planning that would be 
better, we believe, under this proposal.
    I just want to commend the interest that I think you 
expressed with regard to civil liberties. It is an enormously 
important aspect of all of this, and while we don't have 
specific recommendations with regard to civil liberties, except 
one, and I will mention that, civil liberties was a major fact 
throughout in our considerations.
    We believe that the civil liberties, you need an oversight 
board in the Executive Branch as kind of an added check on 
Executive authority, and that's a very important board.
    Now, the other thing of course would be congressional 
oversight, but we want to try to create, within the Executive 
Branch itself, a concern about civil liberties and privacy.
    Senator Fitzgerald. Now, I noted with interest in your 
report that you talked about the lack of information sharing 
prior to September 11, but contrasted that with the period in 
the weeks leading up to the Millennium, when information 
somehow was flowing fairly freely between agencies with 
responsibility. And it seems that, for some reason, there was 
this sense of urgency that Congressman Hamilton said initially 
is so important. There was that sense of urgency under our 
existing structure around the time of the Millennium and 
information was shared. But then we had no sense of urgency in 
the summer of 2001, and information wasn't flowing freely 
between the agencies.
    In attempting to make one person accountable for 
intelligence here, are you trying to create a permanent sense 
of urgency in that there would be one person who was 
responsible, and that person is always going to be on alert; is 
that what the effort here is, to create a permanent sense of 
urgency?
    Mr. Kean. We would hope that would be one of the results is 
that this would be somebody in charge at the President's side, 
testifying before the Senate and the Congress, communicating 
the problems and the sense of urgency on a continual basis. You 
mentioned the Millennium alert. It is instructive because 
senior officials, because of the tremendous information we had 
at that point of things that might happen, were engaged on a 
nearly daily basis. The FBI at that point shared information, 
no question about it. The public was alert. There was a lot 
of--remember all the stuff in the newspapers about what might 
happen?
    We think that kind of sharing and that kind of alert 
probably helped us get through this Millennium period without 
incident. The NCTC would ensure, we believe, a high level of 
intention of terrorist information across all agencies and 
ensure information sharing, at this point, by the FBI and, as 
needed, we could then engage also the attention of the public.
    Mr. Hamilton. I'm glad you mentioned that, Senator.
    That is a success story, the Millennium incident, and it I 
think reinforces the case we try to make. It worked in that 
case because there was sharing of information. There was a real 
focus at that moment. We were really concerned about terrorism 
hitting the country at the Millennium, at the change, and it 
worked. It didn't work on September 11, and it didn't work in 
most other cases, but it worked there.
    Chairman Collins. The Senator's time has expired.
    Senator Fitzgerald. Well, thank you very much. Thank you, 
Madam Chairman.
    Chairman Collins. Thank you. Senator Carper.

              OPENING STATEMENT OF SENATOR CARPER

    Senator Carper. Thank you, Chairman Collins.
    To our witnesses today, to our co-chairs, thank you very 
much for being here. I said to Senator Lieberman earlier that 
during the time, the 10 years I served in the House, 
Congressman Hamilton was one of my mentors, and he provided 
just wonderful leadership by example. And I am not surprised at 
the kind of job that he has done in this capacity as well.
    Governor Kean, who preceded me as Governor of Delaware, our 
terms did not overlap as governors, but each of the new 
governors who are elected are assigned a mentor to serve them 
and to help show them the ropes, and he was a mentor to many of 
the governors who preceded me, and I just want to thank you 
both for the terrific previous service that you have provided 
in how you have reaffirmed again your abilities and the 
qualities that you hold.
    Congressman Hamilton, you mentioned earlier that the kind 
of people that ought to be in charge of following up, and 
making these decisions, and running the show in our 
intelligence operations are not necessarily white males from 
Indiana who speak only English. And I just want to say, for 
this Senator from Delaware, I just want to thank you for 
writing a report in English that even I could understand. 
[Laughter.]
    And to read the Executive Summary, I was just, frankly, 
amazed and so gratified that it was as approachable and 
digestible as it was. And I commend you and your team for that.
    Mr. Hamilton. I'm not sure Tom and I can take credit for 
that. I think our staff deserves the credit.
    Senator Carper. Well, pass it along, please.
    Mr. Hamilton. Thank you.
    Senator Carper. As you know, we work in a difficult 
environment around here, a highly contentious, politically 
charged environment. We deal with difficult issues every week, 
and sometimes we do not make much progress on them. Yet you 
have been asked to take on as difficult and complex an issue as 
one could approach. You have done it in a highly charged, 
politically charged, environment. Yet you have been able to 
deliver to us, and to the President, and the American people, a 
comprehensive report that is understandable, that is clear and 
which enjoys unanimous support of all of the folks who served 
with you on the Commission.
    And I would just ask, just honestly, bluntly, directly, how 
did you do it?
    Mr. Hamilton. Well, the chief credit for that should go to 
Tom Kean because of his remarkable leadership qualities. He is 
a very wise man, but he is also a very patient man. But to be 
more specific, Senator, the focus, first, was on agreeing to 
the facts, and we continually asked ourselves do we have the 
facts straight, do we all have agreement on the facts? If you 
don't have agreement on the facts, you can't get very far, and 
that was the very strong emphasis throughout the early part.
    Then, with regard to trying to build a consensus, it took a 
lot of patience by the Chairman, but I don't know you build 
consensus except talking it out, and it takes--it's a very 
tedious process. It just takes time. You have to deliberate.
    Tom, you may have some thoughts about this, but I think 
what Tom did as Chairman was to give all Commissioners a chance 
to express themselves in great detail.
    We went over the language--you complimented us on the 
language--we went over the language of this report three, four, 
five, six times to try to get it right, all of it, all 13 
chapters, and that takes an enormous amount of time. But, Tom, 
you may want to add to that.
    Mr. Kean. I would certainly give credit. You know Lee 
Hamilton. You know what he's like. You know his reputation. 
When you have somebody like that to work with, consensus 
becomes much more easy because, when Lee spoke, everybody 
obviously listened, and he was always a maker of consensus.
    I think one of the things that helped an awful lot is that 
we got to know each other very well. And as we got to know each 
other, those ``Rs'' and ``Ds'' we see on each other started to 
get dimmer, and we started talking much more about issues and 
much more about the report, and our recommendations, and 
debating the facts. It was tremendously helpful I think that 
some of the Commissioners held informal parties at their homes, 
where the Commissioners attended, to get to know each other 
even better. We got to know each other's families.
    And as you work together like that, I'd say the last 2 
months, they were seminars. And I don't think people even 
remembered what party people belonged to. They were so 
passionate on the issues and the recommendations and that we 
get it right. And it does, it's a question of time, it's a 
question of dialogue, it's a question of getting to know each 
other, and it's a question of trust. We trusted each other in 
the end and were able to come together.
    Senator Carper. Madam Chairman, my colleagues, I would just 
say that we just heard a little tutorial, and not a bad one, 
for how to run this place a lot more effectively going forward. 
And you provided great leadership and examples in the past, and 
you have certainly done that again in this instance.
    I might be wrong, but my recollection is that when the idea 
of a 9/11 Commission was first floated, our President was not 
embracing of the idea, at least initially. I have even heard 
that there are times when there were questions about whether or 
not the Commission was getting the information that you had 
requested.
    Now, we have a situation where, as our party's convention 
has just concluded in Boston, where our nominee, Senator Kerry, 
has pretty much endorsed your Commission's report in its 
entirety and has called for its adoption, its enactment, pretty 
much in its entirety.
    We see and hear President Bush, not only having embraced 
the idea of the Commission, but now rushing to maybe implement 
as many aspects of it as he can through Executive Order. And I 
am wondering, as the elections in November approach, what is 
going on here? And maybe more important than that, and the 
question I would have of you, is we had a way of saying in 
Delaware during my administration, ``carpe diem.'' It is the 
only Latin I know, ``Seize the day.''
    And there is something to be said for seizing the day, 
particularly when it is so hard to get anything done around 
here. And we have the momentum, we have unanimity from your 
Commission, we have a Democrat presidential candidate and a 
Republican incumbent President who are saying this is what we 
ought to do and want to do. And so there is part of me that 
says, well, let us seize the day.
    Is there any danger from rushing to judgment?
    Mr. Kean. I think there is always a danger of not doing 
things with due deliberation and thought. We believe very 
strongly in our recommendations because we worked on them very 
hard, and we had a lot of debate, and a lot of give-and-take, 
and we came up with what we thought was the best. It may not be 
the best. Maybe you all can do better, but there is a moment 
here, it is a moment when hopefully people can come together 
because we haven't got a lot of time.
    We made hard recommendations. I mean, these 
recommendations, we didn't go the easy route. We tried to 
reorganize government, to talk about doing some things in the 
legislative body. These are very hard things to do, and we 
recognized that they were hard things to do, and yet it is an 
emergency. There's an enemy out there who is planning, as we 
meet here, to attack us, and so I hope ``carpe diem'' is the 
right way to go--seize the day--but seize the day, as this body 
always does, with deliberate speed and with due deliberation. 
That would be my recommendation.
    Senator Carper. When governors succeed governors, there is 
a transition period and hopefully a time of interchange when 
the new governor is briefed by the person who succeeded him or 
her. And I understand a similar kind of thing happens when 
Presidents succeed one another. And I have heard that former 
President Clinton shared with President Bush his own concerns 
about the rising importance and urgency of addressing the issue 
of terrorism.
    In the conversations that you had, the testimony that you 
had with President Bush or President Clinton, was that ever 
approached?
    Mr. Kean. Yes, there was a conversation. There was a little 
bit different recollection of the Presidents of what occurred. 
It was a long time ago. But there definitely was such a 
conversation.
    One of the things, by the way, you bring up the transition, 
that hasn't gotten much attention in our recommendations and 
should. We think one of the times the United States is most 
vulnerable is during that transition between Presidents because 
one set of very important people who have responsibilities in 
this area are leaving and another set are coming in. Sometimes 
nominations take a long time, it takes a long time to find the 
right individual, and it takes a long time to get that 
individual cleared, and then confirmed and all of that. During 
that time, these agencies are vulnerable and without leadership 
in many cases.
    And we have a very strong recommendation here that 
Presidents have a certain day--probably before their 
inauguration--when they come up with these most important 
positions involving the defense of this country and that they 
give those, expeditiously give those names to the U.S. Senate, 
and the U.S. Senate treat these nominations unlike other 
nominations, in that they recognize the speed which we need 
those people in place.
    And that's an important recommendation that I bring up 
because you mentioned transition because I don't think it's 
gotten really any attention at all, but we do think it's 
important.
    Senator Carper. Last quick one, if I could.
    Chairman Collins. The Senator's time has expired, and our 
witnesses are on a really tight time frame.
    Senator Carper. Madam Chairman, could I just ask just a 
word on rail security? We have all this emphasis on air 
security, and I know your report touches on it, just if I 
could, just one quick word on rail security, if you would 
please.
    Chairman Collins. Certainly.
    Mr. Kean. Well, since I've been living on Amtrak this last 
2 years between New Jersey and Washington, I have great concern 
over it. [Laughter.]
    No, I think we have a lot further to go on rail security, 
on cargo security. There are a number of other areas that we 
have to move on. We don't believe--we didn't get into it except 
to recommend further measures be taken, but we are not where we 
should be on rail security. There is no question about it.
    Mr. Hamilton. We note that about I think 90 percent of the 
funding or something has gone to aviation, very little to rail.
    Senator Carper. And I would add that of the amount which 
has been appropriated, very little has actually trickled down 
to do the work for which it was intended. Thank you both very 
much.
    Chairman Collins. Senator Lautenberg.

            OPENING STATEMENT OF SENATOR LAUTENBERG

    Senator Lautenberg. Thanks, Madam Chairman, and my thanks 
to you and to Senator Lieberman, getting this burning issue 
into the starting gate. When you are this low in seniority, 
your intelligent comrades have already asked many of the 
questions that you have been saving up for several hours to 
ask.
    Madam Chairman, I want to say that when I see Governor Tom 
Kean, who will continue earning the respect of the people in 
New Jersey, as he has in the past, for his balanced hand and 
for even defending me once in an election campaign when it was 
asserted that I was going to come to Washington and make some 
money on the side, Governor Kean sprang up, and he said, ``I 
disagree with Frank on lots of things, but I know he is not 
coming to Washington to make some money on the side. He would 
have been better off if he had stayed up front and made it up 
there.'' [Laughter.]
    But we thank you, Tom Kean, and you, Lee Hamilton. The two 
of you I think present a kind of model that perhaps we can 
learn from in terms of our negotiations here.
    But one thing that you said in response to Senator Carper's 
question, and that is getting to know one another and the time 
to discuss things, there is a tendency here, as you know from 
your legislative experience, Lee, that the issues that get very 
hot jump out in front, and the next thing you know, if the 
cameras start, the actions follow and not always very 
thoughtfully enough.
    So, while we have a good start here, I think we have to 
allow sufficient time to do it thoroughly, and you have not 
recommended how the structure develops so much as the direction 
that it ought to go in.
    And I think it was Senator Specter who talked about 
something before that also was part of my concerns, and that is 
should this individual who is responsible be term identified so 
that we remove, as much as possible, the fact that that person 
is going to be influenced by presidential contact in a way that 
elongates their service.
    I have been through the same thing with the FAA, as an 
example. I think the FAA should not be a political--the 
administrator should not be a political appointment. Whenever 
you get anything that takes as long as it does to solve those 
complicated problems with technology, and personnel and 
training, I think that someone ought to know that they have got 
an assignment, be it 6 years, 8 years, I do not know what the 
term ought to be, and the Federal Reserve, Congressman 
Hamilton, you noted has that condition. So I would hope that 
would be part of an examination.
            PREPARED OPENING STATEMENT OF SENATOR LAUTENBERG
    Madam Chairman: I want to add my voice to the chorus of Americans 
thanking Governor Kean and Congressman Hamilton and their fellow 
commissioners and staff. They have done an outstanding job under 
difficult circumstances in getting to the bottom of what went wrong 
before and during the savage terrorist attacks on September 11, 2001. 
And they have recommended steps that we can take to avoid another 
September 11.
    The Commission's report has given us much to consider. The 
challenge Congress faces is to consider the 9/11 Commission's 
recommendations swiftly, but also thoroughly. Some of the 
recommendations, if implemented, would lead to sweeping changes in U.S. 
law and policy, which currently limit the role intelligence agencies 
and the military play in domestic security. We need to think these 
changes through because they have implications not only for national 
security, but also for the civil liberties that are the hallmark of our 
Nation.
    The Commission has rightly recognized that our various national 
security, foreign intelligence, and counterintelligence agencies were 
created during the Cold War to fight the Cold War.
    We face a new enemy: Transnational Islamic jihadists. They want to 
make our home front the front lines. They are determined to acquire and 
use weapons of mass destruction. They make no distinction between 
soldiers and civilians. They know no restraint.
    Consequently, we need to reorganize parts of the government to 
fight this new enemy and win this new war.
    The Commission's recommendation to create a National Director of 
Intelligence is appealing for many reasons, especially on the 
accountability front. But I'm concerned that putting an intelligence 
``czar'' in the White House may subject that person to undue political 
pressure. We have already seen how intelligence can be manipulated to 
justify something as precipitous as going to war.
    Also, while it's obviously imperative that we streamline operations 
and get agencies to share information on a ``real-time'' basis, too 
much consolidation may promote a counter-productive ``groupthink'' 
mentality.
    I was struck by a July 19th article in the New York Times about the 
State Department's Bureau of Intelligence and Research. As Times 
reporter Douglas Jehl pointed out, the Bureau has ``no spies, no 
satellites and a reputation for contrariness.'' This little agency, 
which is just one-tenth the size of the Central Intelligence Agency, 
had the best, most accurate pre-war intelligence about Iraq and whether 
Saddam Hussein had weapons of mass destruction.
    Figuring out how to duplicate the success of an agency like the 
Bureau of Intelligence and Research across the government, and then 
getting better coordination from such agencies, may be preferable to 
consolidation.
    While today's hearing is ostensibly about two specific 
recommendations--creating a National Intelligence Director (NID) and a 
National Counterterrorism Center (NCTC)--I do intend to discuss some of 
the Commission's other findings, particularly with regard to the 
flights that took Saudi nationals, including 13 members of Osama Bin 
Laden's family, out of the United States shortly after September 11. 
That continues to trouble me a great deal.
    This is the first of many important hearings. Thank you for getting 
today's hearing organized on such short notice, Madam Chairman. When it 
comes to making America safer, there's much we need to do, and we don't 
have a moment to waste.

    Senator Lautenberg. I spoke to Governor Kean one time--and 
I do not know whether you remember--I called to ask whether or 
not you were getting the data that you wanted because there was 
some talk about subpoenaing records, and that kind of 
disappeared. And just to get things in perspective, the 
original date for your delivery of this report was in early 
May, was that it?
    Mr. Kean. Yes, May 28.
    Senator Lautenberg. And there was a lot of pressure on you 
to complete your work and--let me put it in my terms--just get 
it done with, but you persisted in wanting to have enough time 
to complete the job. And when was it finally agreed that you 
would have more time to do this? It was due May 28, did you 
say?
    Mr. Kean. The Congress passed that bill--I think it was 
your bill, wasn't it, Senator Lieberman? I don't remember the 
date you passed it, but it was March, very early March we were 
given the understanding. We were, by the way, a month late 
getting started because of the appointments of Mr. Kissinger 
and Mr. Mitchell, and then their withdrawal.
    Senator Lautenberg. Yes, and I had the feeling that this 
thing was still being sort of rushed through.
    And one of the other things that was discussed, and that is 
we do not know what the final role of technology is going to be 
in intelligence gathering. You know that at Fort Monmouth in 
New Jersey there is so much wonderful work being done on 
information gathering, on access to data, and we have to permit 
these things to be included in any of the equation that we 
finally develop.
    June 16, the 9/11 Commission reported in its findings that 
there was ``no collaborative relationship between Saddam 
Hussein and al Qaeda.''
    Yet the next day, on June 17, the President said, ``The 
reason I keep insisting that there was a relationship between 
Iraq and Saddam and al Qaeda is because there was a 
relationship between Iraq and al Qaeda.''
    In the same week, Vice President Cheney said that Saddam 
had long-established ties with al Qaeda.
    Given your findings, do you believe that these statements 
by the President and the Vice President at that time added to a 
clarification about Iraq and al Qaeda or was it a further 
misinterpretation?
    Mr. Kean. Well, first, let me clarify one thing. There was 
some thought at one point that maybe the White House or the 
Vice President had information that we didn't have. We have 
clarified that. We believe that there is no information that we 
don't have, that we are all sharing the same information base.
    And, second, there was a relationship between al Qaeda and 
Iraq not as far as September 11 goes. There was no 
collaborative relationship there at all, but we have documented 
in the report a number of contexts spanning several years 
evidence that the two sides discussed some possible 
cooperation, including a report of Iraq may be offering a safe 
haven to bin Laden when there was some question of whether he 
could stay with the Taliban, but nothing concrete seemed to 
emerge from those contexts.
    We found, the word we use in the report is we have found no 
evidence of a collaborative operational relationship, and we 
certainly see no evidence at all that Iraq cooperated in any 
way with al Qaeda in developing and carrying out the attack on 
the United States.
    Senator Lautenberg. Then, the statement ``long-established 
ties with al Qaeda'' doesn't exactly square with your 
interpretation of things.
    Mr. Kean. There was a relationship, but it wasn't, as we 
say, we use the word ``collaborative operational relationship'' 
very carefully because that's what we don't find.
    Senator Lautenberg. Yes. I think that what was intended was 
something different.
    And I would ask another question, and that is your report 
that we must openly confront the problems in the U.S.-Saudi 
relationship, and you cite our failure to clamp down on Saudi-
financed organizations and those institutions that promote 
jihad against Americans. Do you think that the administration 
is doing enough to confront Saudi Arabia about their 
activities, and have they kind of let Saudi Arabia off fairly 
easily, would you think?
    Mr. Kean. We have a section in the report on Saudi Arabia 
and some of our recommendations in that regard. There has been 
certainly a change in the Saudi Arabian attitude toward 
terrorism, and particularly al Qaeda.
    We believe right now, in every evidence we have from the 
Commission, is that right now the Saudi Government is doing 
everything it can to work with the U.S. Government to find and 
destroy al Qaeda because they have recognized that al Qaeda is, 
if anything, just as much, if not even more, anxious to wipe 
out the royal family and their governance of Saudi Arabia than 
they are to attack us. Its the same--so, by necessity, we have 
become great allies.
    The problem we had before September 11 was not that the 
Saudi Government was involved, but that there were obviously 
Saudi financing and Saudi help from wealthy individuals that 
was getting in through, sometimes through charities from Saudi 
Arabia that were getting into al Qaeda and helping bin Laden do 
whatever he was doing.
    Senator Lautenberg. Fair to say, however, that was induced 
by the increasing awareness of their own domestic problems. But 
when it came to American problems, there certainly was no 
forthrightness between the Saudi Arabian Government and our 
needs to find information; is that fair to say?
    Mr. Kean. Yes. What we even suggest very strongly in the 
report is this relationship forever has been about oil; we got 
the oil and anything else was probably all right. We ignored 
some other things on our side. It can't be that way any more. 
We've got to have a much more intelligent, collaborative 
relationship with Saudi Arabia. We've got to encourage them 
toward the reforms which I think both of us probably now 
realize are necessary in that country.
    We've got to have a whole different policy and a different 
face, and it can't be just about oil any more. It's got to be a 
different relationship.
    If the Saudi--there are three countries we go into: Saudi 
Arabia, Afghanistan, and Pakistan. They are three of our most 
important relationships at this point. If any of those were to 
change drastically in the wrong direction, this country would 
have very serious problems in the region, and so we do 
recommend very special work in the area of diplomacy, not just 
military, area of diplomacy, cultural exchanges, educational 
help in particularly those three countries.
    Senator Lautenberg. That ought to be the condition for all 
of our relationships, I think. Thank you very much, Madam 
Chairman.
    Chairman Collins. Senator Pryor.

               OPENING STATEMENT OF SENATOR PRYOR

    Senator Pryor. Thank you, Madam Chairman.
    Before I get started, earlier did you announce that 
Senators could put their opening statements in the record?
    Chairman Collins. Without objection, any statements may be 
submitted.
    Senator Pryor. Thank you, Madam Chairman. I want to thank 
you and Senator Lieberman for your leadership on this issue, 
and certainly you two who led this Commission, and the 
Commissioners and their staff. We all know that the staff is 
absolutely critical in getting this done, but I really want to 
thank you all, everybody involved in this process, for what you 
have done. This is an excellent report in every way, and it is 
very helpful for us in the Senate, and the Congress and in 
government generally.
    I want to touch on something, a recommendation you make--it 
is on page 396--where you talk about threat-based assessments 
domestically. And I am not going to get into chapter and verse 
on it, but that is where the reference is. And I want to be 
clear on this because this is something that in this Committee 
we have spent some time talking about in the last year and a 
half.
    There is a natural balance that you have to strike, and I 
think there are some who would argue that, basically, we need 
to look at population as the predominant criteria in keeping 
Americans safe. And then folks from rural States say, ``Wait a 
minute. We have needs too. We have infrastructure. We have 
targets. We are part of the system, and terrorists could enter 
the system through our States.''
    And I would like both of you to share your sense of that 
balance and how the Congress should strike that balance.
    Mr. Hamilton. Well, we come out pretty decisively I guess 
on one side of that question, and we think that the assistance 
that would be made available to improve protection in a given 
community and to improve response should be distributed largely 
on the basis of the assessment of the threat.
    Now, that is not a precise science, but it is, I think, 
reasonably clear that most of the threats that we are familiar 
with are aimed at high-visibility targets in the United States, 
and we do know, I think, that they want to do as much damage as 
they possibly can with each strike, and they want to strike at 
the symbols of America.
    So we think that the largest threats are in New York and in 
Washington. That doesn't mean there are no threats elsewhere, 
but that's where most of the threats are. And therefore money 
that is distributed to deal with the aftermath of those threats 
or protecting against those threats should be based largely on 
that assessment of risk.
    And we specifically say, as you have noted, that this is 
not a general revenue-sharing program. This is a program that 
has a very specific purpose to it, and so that is where we came 
down on that issue.
    Now, you're from Arkansas, and I'm from Indiana, and I know 
some of the pressures that operate here on American 
politicians. So that advice may not always go down well, but we 
are not suggesting that the other communities have no interest 
in this or have no claim to it. We just think the major focus 
of the resources should go to the high-risk areas.
    Mr. Kean. Yes, and how you do that would be up to the 
Congress, obviously. Because, I mean, we recognize you can have 
a rural area, and you can have a nuclear plant or you can have 
a rural area and in that State is a container port. I mean, 
there are a number of facilities, it isn't just in population, 
but what we suggest is where we know, from the charter, and the 
results, and the evidence, that the terrorists are the greatest 
risk, what the greatest risk of attack is, probably that's 
where the majority of the funds ought to be targeted.
    Senator Pryor. Thank you.
    Mr. Hamilton, earlier, you said--and I cannot exactly quote 
it--but basically you said that the principal problem with 
September 11 was that the agencies did not share information, 
and the Commission report makes the recommendation of 
restructuring certain agencies and responsibilities within the 
government.
    Are you two convinced that we need to have a major 
reorganization and that we cannot achieve the same thing by 
just forcing the existing apparatus, if we could call it that, 
to share information across agencies and have one person 
designated by the President and/or Congress to have some 
directional and budget authority type of oversight over these 
various agencies?
    Mr. Hamilton. Well, the latter is what we are really 
talking about with the National Intelligence Director. You have 
got to smash the stovepipes, and you've got to force it, and we 
don't know any way to do that except to put someone over it who 
will not only put out an order, but follow it on a day-to-day 
basis and make sure that it's done and whose responsibility it 
is to get it done.
    We think institutional change is essential to bring about 
the kind of transformation you need in the intelligence 
community. And if you don't have the institutional change, we 
don't think it's going to happen or if it'll happen, it'll 
happen for a year or two and then people will forget about it.
    Mr. Kean. What you suggest is happening right now, I think, 
in the sense that I think people are aware of the problem, 
aware, and I think from the top there's a lot of effort from 
the top for these agencies to try and get sharing of 
information. It's still not occurring, and the reason it's not 
occurring is the culture of these places is old and it's deep, 
and people aren't used to it, and they don't like it, and they 
still treasure these nuggets that they have, and they want to 
use it for their own cases and their own possibilities, and 
it's not getting shared right now. It really isn't.
    Senator Pryor. And I agree with that. I guess one concern I 
have is that the last thing I want to do is just create another 
bureaucracy. And I think that Homeland Security has done a lot 
of great things. I think they are getting a lot of things 
right, but I also think that there exists within this brand-new 
Federal agency different cultures, turf battles, and other 
similar problems. And so I guess if I'm looking at Homeland 
Security as a model, even though it's a good model in many 
respects, I am not sure it is the model I would want to follow 
in moving our intelligence this direction.
    Do you all have any comments on that?
    Mr. Hamilton. We do not want to create new bureaucracy here 
any more than I think anyone else does. We do not think we are 
recommending a significant net increase in personnel, for 
example. The current Community Management staff in the CIA 
would become the core staff of this National Intelligence 
Director. And what we are really doing here is breaking down 
the bureaucracy with this proposal. We are not adding to it. 
Now, if we were just adding to the bureaucracy, we ought not to 
do it. Nobody wants to do that.
    This National Counterterrorism Center replaces a number of 
fusion centers across the government. It's going to become the 
center point. We're going to knock out a lot of fusion centers, 
and it will become this fusion center, as your Chairman said 
the other day in conversation, a ``super TTIC,'' I think you 
called it. That's a good description. I think TTIC is a good 
concept, but it needs to be very much strengthened from what it 
is. So I don't think we're creating new bureaucracy here.
    The model that we're actually following is a private-sector 
model. One of the models we looked at very hard is GE, and much 
of what we've done is patterned after that
    Senator Pryor. Good. Well, let me ask specifically how some 
of this works because, as I look at your flow chart and read 
some of your findings and conclusions in the report, I guess I 
still have some questions about whether some of these 
intelligence agencies stay within the agency they are in right 
now? For example, in the Department of Defense, there are a 
number of intelligence agencies. Do they stay there, but then 
at some point or in some way report to the NID, the National 
Intelligence Director, or are they actually working for the 
NID? How does this work?
    Mr. Hamilton. Well, the FBI would report to the Deputy NID, 
National Intelligence Director, on homeland intelligence.
    Senator Pryor. Right.
    Mr. Hamilton. The DIA, the NSA, the imagery places, the 
satellite images, they would report through the Deputy NID for 
domestic intelligence, and the deputies, of course, report to 
the National Intelligence Director. That is the flow of 
information.
    Senator Pryor. But does that not put some of these folks or 
maybe all of them in a position of having two bosses? For 
example, they would have the Secretary of Defense or they would 
have some other boss and the NID?
    Mr. Hamilton. Yes, there is some of that. I think that is 
correct. You cannot avoid that, I don't believe. You have it 
today. But the chain of command here, with regard to 
counterterrorism, is very clear, I believe.
    Senator Pryor. Well, again, thank you all for your work on 
this. You have just done a great service to this country.
    Chairman Collins. Thank you. And last, but certainly not 
least, the Senator from Hawaii, Senator Akaka.

               OPENING STATEMENT OF SENATOR AKAKA

    Senator Akaka. Thank you very much, Madam Chairman. I would 
like to take the time to commend our Chairman and Ranking 
Member, for acting so swiftly in calling hearings on the 9/11 
Commission report. You did it so swiftly. It took me this long 
to get here. [Laughter.]
    I would ask permission, Madam Chairman, that my statement 
be placed in the record.
    Chairman Collins. Without objection.
    [The prepared statement of Senator Akaka follows:]
                   OPENING STATEMENT OF SENATOR AKAKA
    Thank you Madam Chairman. I would like to commend our Chairman and 
Ranking Member for acting swiftly in calling hearings on the 9/11 
Commission Report so soon after its release. I cannot think of a more 
pressing issue before this Committee. I extend my welcome and gratitude 
to Governor Kean and my good friend Lee Hamilton, with whom I served in 
the House of Representatives, for your hard work and commitment to this 
cause. I know our Committee will use the next few months to examine 
your recommendations thoroughly.
    Just as the terrible tragedy of September 11, 2001, brought all 
Americans together in mourning for our lost compatriots and in a common 
resolve to defeat our faceless foes, your Commission's report provides 
us with another opportunity to work together in a nonpartisan manner to 
fashion an effective response to those enemies.
    I want to thank you, your colleagues, and your staff for your great 
dedication and contribution, especially for your unbiased approach to 
improving our nation's defenses.
    So many comments in your report struck me for their insight and 
throughout our hearings, I hope to discuss many of them. Let me start 
by emphasizing a comment on page 340 of your report:
    ``America stood out as an object for admiration, envy, and blame. 
This created a kind of cultural asymmetry. To us, Afghanistan seemed 
very far away. To members of al Qaeda, America seemed very close. In a 
sense, they were more globalized than we were.''
    I think you have identified both the problem and its solution.
    As you know, we are proud in Hawaii of our multi-cultural society, 
our acceptance of one another, our location as a gateway to Asia.
    As your report observes, Americans need to think ``globally.'' But 
in order to do that we need to begin not only with improving the work 
force we have but the work force we will need in the future.
    In many areas of your report, you point out the gaps in our human 
capital resources to provide both analysts and field agents in this 
global war on terrorism. As you mention, it takes up to seven years to 
bring an operations recruit of the Central Intelligence Agency (CIA) to 
full performance. You point out that the total number of undergraduate 
degrees granted in Arabic in 2002 was six. You mention that the CIA's 
Counterterrorist Center (CTC) ``established a new strategic assessments 
branch during July 2001. The decision to add about ten analysts to this 
effort was seen as a major bureaucratic victory, but the CTC labored to 
find them.''
    The counterterrorism institutions we have now, as your report 
notes, are seriously understaffed. The Terrorism Threat Integration 
Center (TTIC), which has the primary responsibility for terrorism 
analysis and for day-to-day terrorism analysis provided to the 
President, according to the Administration, is seriously understaffed 
and is having trouble getting qualified people detailed to serve in it.
    As we review the Commission's recommendations for institutional and 
operational reorganization, I believe we also need to consider programs 
that ensure that we can attract and retain the professional workforce 
that is necessary. Moreover, we must guarantee that institutions 
created to address the current threat of terrorism are also capable of 
adjusting to new threats.
    We should ensure that we are training the right people in the right 
way to combat future threats. Right now we are taking analysts from 
several agencies to serve in TTIC, and robbing Peter to pay Paul is not 
the best solution. We need to plan for where the intelligence analysts 
of tomorrow will come from if it is true that today's war on terrorism 
will take generations to fight.
    After September 11, Robert Mueller, Director of the Federal Bureau 
of Investigations (FBI), made a plea on national television for 
speakers of Arabic and Farsi to help the FBI and national security 
agencies translate documents critical to counterterrorist efforts.
    Recognizing this problem, the Commission's report properly notes 
that ``the FBI should fully implement a recruiting, hiring, and 
selection process for agents and analysts that enhances its ability to 
target and attract individuals with educational and professional 
backgrounds in intelligence, international relations, technology, and 
other relevant skills.''
    I agree completely and I would extend this recommendation to 
additional agencies.
    I introduced with my colleagues, Senators Voinovich, Durbin, Allen, 
Warner, Brownback, Chambliss, Rockefeller, and Collins, S. 589, the 
Homeland Security Federal Workforce Act, a bill to provide enhanced 
student loan repayment authority and scholarships for individuals 
skilled in language and science who perform government service. Our 
bill also provides for a rotational program to provide critical cross-
training for the national security community. In addition, Senator 
Durbin and I introduced S. 2299, the Homeland Security Education Act, 
which would encourage the expansion and improvement of science, math, 
and foreign language programs at the elementary, secondary, and higher 
education levels.
    The predecessor of S. 589, S. 1800, was first introduced in 
December 2001 and the current bill passed the Senate in November 2003. 
It has not yet been acted upon by the House.
    Both bills address the immediate and long-term human capital 
problem facing our intelligence and national security communities. 
According to the Commission's report, it takes five to seven years of 
training, language study, and experience to bring a CIA recruit up to 
full performance. Much more could be accomplished if the training began 
in our elementary schools and continued throughout high school and 
college.
    Many foreign language programs at the elementary school level have 
suffered deep cuts, forcing schools to reduce or eliminate their 
foreign language programs. This is crucial as foreign language study at 
the elementary and secondary levels offer the best chance for students 
to develop the strongest language proficiencies. Moreover, while these 
schools may not be teaching Arabic, it is easier to learn additional 
languages after learning one foreign language.
    In addition to early and sustained education, we need to develop 
long-term relationships with people from every walk of life all across 
the world, whether or not the languages they speak are considered 
critical at the time. An ongoing commitment to maintaining these 
relationships and language expertise helps prevent crises from 
occurring and provides diplomatic and language resources when needed. 
We cannot afford to seek out those with foreign language skills after a 
terrorist attack occurs. We must provide an ongoing commitment to 
language education and encourage knowledge of foreign languages and 
cultures.
    The report notes that ``security concerns also increased the 
difficulty of recruiting officers qualified for counterterrorism [. . 
.] Many who had traveled much outside the United States could expect a 
very long wait for initial clearance. Anyone who was foreign-born or 
had numerous relatives abroad was well-advised not even to apply. With 
budgets for the CIA shrinking after the end of the Cold War, it was not 
surprising that, with some notable exceptions, new hires in the 
Clandestine Service tended to have qualifications similar to those of 
serving officers: That is, they were suited for traditional agent 
recruitment or for exploiting liaison relationships with foreign 
services but were not equipped to seek or use assets inside the 
terrorist network.''
    The Commission recommends that the CIA Director develop ``a 
stronger language program, with high standards and sufficient financial 
incentives.'' But as the Commission observes, ``the limited pool of 
critical experts--for example, skilled counterterrorism analysts and 
linguists--is being depleted. Expanding these capabilities will require 
not just money, but time.''
    This is a reflection of a current and future human capital problem 
that will require a substantial and long-term investment in our 
intelligence agencies and our entire educational system if the United 
States is to meet the challenges of protecting its people and our 
borders.
    Having the right people in the right places is the only way to 
combat future threats. We must ensure that any institutions created as 
a result of this Commission's recommendations are not just framed in 
terms of their capability of addressing the current threat of global 
terrorism but are capable of educating the public about future threats 
so that Americans can be prepared to fight them. We need to avoid the 
trap of designing systems to fight the last war.

    Senator Akaka. I also want to express my welcome, and 
gratitude, and my deep appreciation to Governor Kean and my 
good friend Lee Hamilton--I wish we had the time to talk about 
our years there in the House--also, your fellow commissioners 
and of course your staff for your honest, nonpartisan approach.
    Let me start by emphasizing an observation made on page 340 
of your report, where you observe, ``America stood out as an 
object for admiration, envy and blame. This created a kind of 
cultural asymmetry. To us, Afghanistan seemed very far away. To 
members of al Qaeda, America seemed very close. In a sense, 
they were more globalized than we were.''
    I think you have identified both the problem and its 
solution. We, in Hawaii, are proud of our multicultural 
society, our acceptance of one another and our position as a 
gateway to Asia. Throughout your report, you point out the gaps 
in our human capital resources to provide both analysts and 
field agents for this global war on terrorism.
    As you mentioned, it takes up to 7 years to bring a CIA 
operations recruit to full performance. The total number of 
undergraduate degrees granted in Arabic in 2002 was six. And 
when the CIA created a Strategic Assessments Branch in 2001, at 
its Counterterrorism Center, the CIA had trouble finding 10 
analysts to serve it.
    As your report observes, Americans need to think globally, 
but in order to do that, we need to improve the workforce we 
have today and recruit the workforce we will need in the 
future.
    Our current counterterrorism institutions, as you note, are 
seriously understaffed. The Terrorist Threat Integration Center 
or TTIC, which has primary responsibility for terrorism 
analysis and for the day-to-day terrorism analysis provided to 
the President, is seriously understaffed and is having trouble 
attracting qualified people.
    As Congress reviews the Commission's recommendations for 
institutional organization, we must fashion programs to ensure 
the intelligence community can attract and retain the necessary 
professional workforce. We must ensure that we are training the 
right people in the right way to combat future threats. Right 
now, agencies are detailing analysts to serve in TTIC. Robbing 
Peter to pay Paul is not the best solution. We need to plan for 
training the intelligence analysts of tomorrow if it is true 
that today's war on terrorism will take generations to fight.
    I would appreciate any additional insights you might have 
on this problem. We must do more to ensure that there are more 
than six undergraduate degrees in Arabic and that our future 
workforce can think globally. And this Committee has been 
looking seriously at this problem, also.
    So I am asking for any of your insights on this problem.
    Mr. Kean. I think there are a lot more now in Arabic at all 
our universities, ones that I am familiar with, as a university 
president. Arabic, which was not a great subject that attracted 
a lot of students, is attracting more students now.
    We also have to take advantage, I believe, personally, as a 
college president. We have, in our university, just a wonderful 
group of Muslim students who want to pursue these subjects, are 
totally loyal to the United States. They are Americans. They 
just happen to be of that ancestry or that faith. I don't think 
we make very good use of them. They are just as antiterrorist 
as we are. They want to get this subject solved just as fast as 
we can. They are in as much danger as we are, and I don't 
believe we make much use of them.
    As far as the TTIC Center, I think because the Center is 
really not very powerful right now, it is not the place people 
want to go. People detail from these various other agencies--
and this is anecdotal from talking to a number of people in the 
agencies--TTIC isn't where they want to go because it doesn't 
lead to advancement, and it doesn't lead to success, it doesn't 
lead to where you want to go in the agency.
    I believe that we recommend here, a really powerful TTIC, 
with real responsibility and real power, would attract some of 
the brightest and the best in the agencies. This would be the 
place people would want to serve, and I think it would attract 
some much more able people to serve in that regard, but I 
couldn't agree with you more. And if the Congress wants to, at 
some point, to fly some funds to those of us in the higher 
education business to help us promote the study of some of 
these other subjects, on globalism and that part of the world 
in particular, we will do the job.
    Mr. Hamilton. Senator, I think that one of the criticisms 
made of our report is that we make the CIA Director separate 
from the National Intelligence Director. We do that because we 
think the present CIA Director's job is much too broad and 
really impossible, but we also do it because we think the CIA 
Director has an enormous task to achieve some of the things you 
are talking about in your statement.
    We want him to rebuild analysis in the CIA. We want him to 
rebuild, we have already talked about this HUMINT, human 
intelligence. We want him to build stronger language 
capabilities within the CIA, the very thing that you're talking 
about. And we want him to recruit a whole new generation of 
officers that represent diversity. Your State is the leader, of 
course, for all of America with respect to diversity.
    And we think that those are not minor matters. We think the 
national security of the United States is tied up in the 
ability of the CIA Director to make those kinds of changes in 
the CIA. And so we think that's a separate position. And one of 
the reasons we think it's a separate position is the very thing 
that you're mentioning. Somebody has to take leadership and 
work to develop that diversity.
    Senator Akaka. Thank you. As you note in your report, the 
Goldwater-Nichols Act requires miliary officers to serve tours 
outside their service in order to win promotion.
    There appears to be no parallel requirement within the 
intelligence community. Legislation reported out of this 
Committee, and passed by the Senate last year, S. 589, the 
Homeland Security Federal Workforce Education Act, would 
establish a rotational assignment program for mid-level Federal 
employees in national security positions. This bipartisan 
legislation is awaiting action in the House.
    My question to you is do you or would you support requiring 
rotational assignments as a key consideration in promotion 
within the intelligence community?
    Mr. Hamilton. I don't know that we make a specific 
recommendation with respect to that, but at least my personal 
answer would be, yes, because you've got to get people with a 
broad view and get away from a very narrow focus.
    I think any--and you folks know a lot more about this than 
we do--but any step like that which will broaden the horizons, 
if you would, of your employees and get them to think beyond 
the purposes of the specific agency is desirable.
    Mr. Kean. I would agree.
    Senator Akaka. Thank you. My time has expired. Thank you, 
Madam Chairman.
    Chairman Collins. Thank you, Senator.
    I want to thank our distinguished witnesses for being with 
us today. You have performed an invaluable service to your 
country, and your service continues today by your rearranging 
your schedules to be here. I know that the hearing went longer 
than your schedules really allowed, and I appreciate your 
patience with that as well.
    It has been extremely helpful to the Committee to have you 
here today, and I appreciate your participation and the 
participation of the Committee Members.
    The record will remain open for 5 days, and our next 
hearing will be on Tuesday, August 3, starting at 10 a.m.
    Senator Lieberman, do you have any closing comments?
    Senator Lieberman. Thanks very much, Madam Chairman.
    Let me add my thanks to Governor Kean and Congressman 
Hamilton. It has been a very good hearing. It is the beginning 
of the next stage in this process. Some understandable, direct 
questions were asked about some of the proposals. I, for one, 
think you stood your ground very convincingly, certainly, to 
me.
    And what comes back to me is what was said earlier on, 
which is that your conclusion is that, when it comes to 
intelligence, there is still no one in charge. It is fine to 
say the President is, but it is not fair to this President or 
any President to expect him to be in charge on a daily basis, 
24/7, of intelligence. So I think the urgent need is there. You 
have made very strong proposals.
    And I thank the Chairman for the pace of our consideration. 
We look forward to coming back next week for more detailed 
consideration.
    Thank you very much.
    Chairman Collins. Thank you.
    This hearing is now adjourned.
    [Whereupon, at 2:12 p.m., the Committee was adjourned.]

                            A P P E N D I X

                              ----------                              


              PREPARED OPENING STATEMENT OF SENATOR SHELBY
    Chairman Collins, Senator Lieberman I want to thank you for holding 
this hearing today to discuss the findings of the National Commission 
on Terrorist Attacks upon the United States. I also want to thank 
Chairman Kean and Vice Chairman Hamilton for their diligent work on 
behalf of our country and for appearing before us to discuss the 
report.
    Last week the National Commission on Terrorist Attacks upon the 
United States, more commonly referred to as the 9/11 Commission, 
released its report. The Commission's charge upon creation was to 
investigate the facts and circumstances relating to the terrorist 
attacks of September 11, 2001 including those relating to intelligence 
agencies, law enforcement agencies, diplomacy, immigration issues and 
border control, the flow of assets to terrorist organizations, 
commercial aviation, the role of congressional oversight and resource 
allocation, and other areas determined relevant by the Commission. The 
Commission also issued recommendations that they ``believe[d] to be the 
most important, [and] whose implementation can make the most 
difference.''
    The charge of this Commission and the recommendations borne from 
their labors are vitally important to our nation and to the memories of 
those who lost their lives on that tragic day. However, it is equally 
important that we not simply react but that we take specific, decisive 
action based on a broad range of knowledge and expertise in order to 
accomplish the goals set forth. I truly believe that decisions made 
hastily and without a full appreciation for the consequences may 
ultimately create more problems than they actually solve.
    Even before the Commission issued its findings and recommendations 
our country and our government, recognizing many of the failings that 
led to September 11, resolved to reform itself. In short order, 
Congress created the Transportation Security Administration (TSA) to 
address the many concerns and threats to the flying public. Congress 
then created a new Department of Homeland Security (DHS) that consumed 
many of the departments and agencies that were once either part of 
other departments and agencies or were independent, including the TSA. 
However, before we can declare DHS a fully integrated, fully 
functional, fully effective Department we have much work ahead of us.
    The Commission has said that in order to look forward and make 
meaningful recommendations, it was necessary to look backward. While it 
is difficult for many to re-live that day or even recount the years and 
months that preceded it, I believe that if we truly want to define our 
shortcomings it is necessary.
    One significant shortcoming identified by the 9/11 Commission lies 
within our intelligence community. That shortcoming led us to September 
11 and persists still today, despite efforts at reform and integration. 
While the Commission report states that ``prior to 9/11 no single 
agency had more responsibility--or did more--to attack al Qaeda . . . 
than the CIA'' it also sights numerous instances where there was a 
significant communication breakdown both within the CIA and within the 
intelligence community as a whole, particularly when it came time for 
agencies to work together. I believe that the Commission has rightly 
suggested that massive structural reform of the intelligence community 
is essential if we expect to properly connect the dots.
    The Commission identified no less than five different entities 
responsible for terrorism analysis located across the government and 
has clearly and appropriately articulated the need to eliminate this 
duplication. They suggest the establishment of a National 
Counterterrorism Center (NCTC) to be a center for joint operational 
planning and joint intelligence. While I agree that the existing 
duplication should be eliminated in order to maximize efficiencies and 
minimize interagency friction, I do not believe we should reinvent the 
wheel in an effort to establish a central facility. I believe that our 
efforts should capitalize on the important assets of each agency and 
fully integrate their assets, their information and their personnel. 
Only after such an integration occurs will our government truly have 
the capability to appropriately analyze all of the information it 
receives.
    Going one step further, the Commission recommends that this newly 
integrated NCTC be overseen by a new National Intelligence Director. 
The Commission argues that the current Director of Central Intelligence 
is flush with responsibility and yet has little real control over much 
of the budget and personnel he is required to oversee. I have long 
advocated the establishment of a National Intelligence Director--one 
who holds a cabinet seat, who has strict budgetary control and one who 
is ultimately responsible for the successes and failures of our 
intelligence.
    The Commission also carefully scrutinized the issue of terrorist 
financing. This issue, as we all know, is central to the global war on 
terrorism. Their conclusion that the Central Intelligence Agency 
relegated minimal resources to tracking terrorist funds and 
demonstrated little regard for the financial component of terrorist 
investigations is particularly troubling, although not surprising given 
what was already known. The Banking Committee's recent hearing on the 
nomination of Stuart Levey to be Under Secretary of Treasury for 
Enforcement and head of the newly established Office of Financial 
Intelligence emphasized the role this new office will have in working 
with the intelligence community to ensure the proper focus and 
resources are allocated to the issue of terrorist financing.
    Further, as Chairman of the Committee on Banking, which has 
jurisdiction over many money laundering and terrorist financing issues, 
particularly oversight of the Bank Secrecy Act and Title III of the 
U.S.A. Patriot Act, I will continue to investigate the manner by which 
terrorists use the financial system to facilitate their activities. The 
Committee has already held a number of hearings on this matter, and 
will continue to do so, including hearings specific to the information 
attained by the 9/11 Commission. The Commission's report provides the 
best available analysis to date on the means by which the September 11 
hijackers funded their activities and operations while in the United 
States. The use of ATMs, for example, goes directly to the heart of the 
method by which terrorists exploit banks to fund their day-to-day 
operations.
    Madam Chairman, I have highlighted just a few of the issues that 
were raised in the Commission's report. During my time on the 
Intelligence Committee I saw first hand how unwilling our different 
intelligence agencies are to share information. The CIA, for example, 
hoarded information from other agencies to the detriment of national 
security. I also observed incidents where the FBI did not ``know what 
it knew'' because of poor internal intelligence sharing. Had the CIA, 
FBI, NSA and other intelligence agencies worked cooperatively and had 
the technological framework in place to ``connect the dots'' about 
terrorist threats, perhaps 9/11 could have been prevented.
    I believe that reforming our intelligence community is one of the 
most important things that we can do in order to ensure that our 
country is in fact safer, stronger and wiser. However, I remain 
committed to ensuring that the actions and reforms we undertake are 
done with thoughtful, measured progress. Taking action simply for the 
sake of taking action will not secure our homeland and it certainly 
will not honor the memory of those who lost their lives on September 
11, 2001.
    Thank you again for holding this important hearing today and I look 
forward to additional hearings to discuss these important issues 
further.
[GRAPHIC] [TIFF OMITTED] T5505.001

[GRAPHIC] [TIFF OMITTED] T5505.002

[GRAPHIC] [TIFF OMITTED] T5505.003

[GRAPHIC] [TIFF OMITTED] T5505.004

[GRAPHIC] [TIFF OMITTED] T5505.005

[GRAPHIC] [TIFF OMITTED] T5505.006

[GRAPHIC] [TIFF OMITTED] T5505.007

[GRAPHIC] [TIFF OMITTED] T5505.008

[GRAPHIC] [TIFF OMITTED] T5505.010

[GRAPHIC] [TIFF OMITTED] T5505.011

[GRAPHIC] [TIFF OMITTED] T5505.012

[GRAPHIC] [TIFF OMITTED] T5505.013

[GRAPHIC] [TIFF OMITTED] T5505.014

[GRAPHIC] [TIFF OMITTED] T5505.015

[GRAPHIC] [TIFF OMITTED] T5505.016

[GRAPHIC] [TIFF OMITTED] T5505.017

[GRAPHIC] [TIFF OMITTED] T5505.018

[GRAPHIC] [TIFF OMITTED] T5505.019

[GRAPHIC] [TIFF OMITTED] T5505.020

[GRAPHIC] [TIFF OMITTED] T5505.021

[GRAPHIC] [TIFF OMITTED] T5505.022

[GRAPHIC] [TIFF OMITTED] T5505.023

[GRAPHIC] [TIFF OMITTED] T5505.024

[GRAPHIC] [TIFF OMITTED] T5505.025

[GRAPHIC] [TIFF OMITTED] T5505.026

                                 <all>

</pre></body></html>
